<html>
<title> - TSA OVERSIGHT AND EXAMINATION OF THE FISCAL YEAR 2016 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 114-79]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-79
 
                 TSA OVERSIGHT AND EXAMINATION OF THE 
                      FISCAL YEAR 2016 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       U.S. GOVERNMENT PUBLISHING OFFICE
96-893 PDF                 WASHINGTON : 2015                       


________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a>  
    
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

KELLY AYOTTE, New Hampshire,         MARIA CANTWELL, Washington, 
    Chairman                             Ranking
ROGER F. WICKER, Mississippi         AMY KLOBUCHAR, Minnesota
ROY BLUNT, Missouri                  RICHARD BLUMENTHAL, Connecticut
MARCO RUBIO, Florida                 BRIAN SCHATZ, Hawaii
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY BOOKER, New Jersey
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
DAN SULLIVAN, Alaska                 JOE MANCHIN III, West Virginia
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
DEAN HELLER, Nevada
CORY GARDNER, Colorado
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2015...................................     1
Statement of Senator Ayotte......................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Booker......................................    12
Statement of Senator Manchin.....................................    14
Statement of Senator Blumenthal..................................    16
Statement of Senator Klobuchar...................................    17
Statement of Senator Thune.......................................    23

                               Witnesses

Melvin Carraway, Acting Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     5
    Prepared statement...........................................     6

                                Appendix

Response to written questions submitted to Melvin Carraway by:
    Hon. Kelly Ayotte............................................    27
    Hon. Ted Cruz................................................    28
    Hon. Bill Nelson.............................................    29
    Hon. Richard Blumenthal......................................    31
    Hon. Cory Booker.............................................    36


  TSA OVERSIGHT AND EXAMINATION OF THE FISCAL YEAR 2016 BUDGET REQUEST

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Kelly Ayotte, 
Chairman of the Subcommittee, presiding.
    Present: Senators Ayotte [presiding], Thune, Moran, 
Gardner, Cantwell, Klobuchar, Blumenthal, Booker, Manchin, and 
Peters.

            OPENING STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Good afternoon and welcome. As you may 
know, today marks my first hearing as the Chairman of this 
Subcommittee, and today's hearing represents the first of what 
we anticipate will be an active spring schedule.
    The Subcommittee will soon begin a series of hearings in 
preparation for this year's Federal Aviation Administration 
reauthorization effort, as the agency's authorization expires 
in September of this year.
    I am very appreciative to be here with Senator Cantwell, my 
Ranking Member. We basically just switched places. I have had 
the honor of working with her in the past. I know we will work 
together in a bipartisan fashion in this committee on these 
important issues.
    At a time when our Nation faces evolving security threats, 
often focused on the airline industry and its partners, the 
Transportation Security Administration's role is more important 
than ever.
    To protect the traveling public in our transportation 
systems, we need strong leadership and a coherent strategy from 
TSA to ensure our Nation is pursuing the best security 
policies.
    To that end, in January, I joined several of my colleagues 
on the Commerce Committee, including Chairman Thune, Ranking 
Member Nelson, Ranking Member Cantwell of this committee, and 
Chairman Fischer in writing to the President asking him to 
prioritize the formal nomination of the TSA Administrator, as 
former Administrator John Pistole announced his intention to 
retire in October 2014, which brings me to today's witness.
    I want to welcome to the Subcommittee Mr. Melvin Carraway, 
who serves as Deputy Administrator and current Acting 
Administrator at TSA. Although Mr. Carraway has a long history 
of service in various capacities at TSA, today's hearing is the 
first time he will testify before a congressional committee, 
but we really appreciate all of your hard work and what you are 
trying to do.
    Thank you for being here, and thank you for all your 
service to the Nation. I look forward to hearing from you on 
many important issues facing TSA and the safety of the 
traveling public.
    I also look forward to working closely with you moving 
forward to address these issues. I hope you will view this 
subcommittee as a partner in your important work.
    At today's hearing, I look forward to hearing your views on 
a number of issues facing our Nation's security situation and 
TSA's operations. I know my colleagues have strong interest in 
your comments as well. In short, we want to hear your vision 
for the agency and how the budget request for Fiscal Year 2016 
supports TSA's mission.
    Additionally, I hope to hear from you how we can address a 
number of issues that have recently garnered media attention, 
including Federal Air Marshals' misconduct and access control 
failings.
    As you know, TSA has adopted an intelligence-driven, risk-
based security approach, which is designed to allow the agency 
to deploy resources in a more focused and efficient manner, 
concentrating on unknown and high risk travelers. This approach 
simultaneously helps alleviate burdensome procedures for low-
risk passengers.
    One tool that TSA uses in its risk-based security strategy 
is TSA Pre3 which I am sure many of us have used. TSA recently 
announced its intent to expand enrollment options for 
application for Pre3, and we need to make sure this effort 
does not diminish the safety or security of passengers but 
applies to low-risk travelers for their convenience.
    Anyone who travels through our Nation's airports is well 
aware that TSA relies heavily on technology in order to screen 
passengers and carry out its mission. Cost-effective 
acquisition policies and procedures are critical to ensuring 
TSA is able to deploy the best technology to effectively and 
efficiently screen passengers and baggage.
    Last Congress, I introduced legislation to improve 
transparency and accountability in technology acquisition 
spending and planning by TSA. The legislation was passed out of 
the Commerce Committee and ultimately signed into law in 
December.
    Under the law, TSA is required to develop, update, and 
publish biennially a strategic 5 year technology investment 
plan, analyze whether an acquisition is justified before 
acquiring any security related technology, establish and report 
baseline performance requirements before acquiring any security 
related technology, utilize any existing equipment in inventory 
before getting additional units, and report to Congress on the 
feasibility of tracking TSA's security technologies through 
automated information and data capture technologies.
    Understanding that this law is still being implemented, as 
it is relatively new, I look forward to hearing an update on 
your acquisition reform efforts.
    Finally, the Federal Air Marshal Service is responsible for 
detecting, deterring, and disrupting criminal and terrorist 
acts against air carriers, passengers, airports, and crews.
    As an additional line of defense against threats while 
flights are in the air, the Federal Air Marshal Service should 
be promoting confidence in our Nation's civil aviation system. 
Yet recent news stories have dogged the service, including 
media reports of abuse of authority with regard to improper 
scheduling for inappropriate personal reasons. This is 
extremely troubling, and recent media accounts have also 
exposed security gaps in the use of security identification 
display area, or SIDA badges.
    While these instances may largely be attributed to employee 
misconduct or misuse of the credential and not terrorist 
activities, we must make sure that the proper mechanisms and 
checks are in place to prevent these abuses from occurring and 
to ensure security.
    The Aviation Security Advisory Committee is conducting a 
review of access control measures, and I look forward to 
reviewing their findings and recommendations.
    Also disturbing is the exposure of a gun smuggling 
operation where an airline employee was able to sneak firearms 
through the secure areas of an airport and into the cabins of 
commercial airliners with the help of a co-conspirator.
    This series of security and procedural breaches must be 
investigated exhaustively, and it should also highlight the 
need for ongoing assessments of security weaknesses.
    TSA is very often the face of security on the home front. 
Mr. Carraway, you have a tough job overseeing the agency with 
an ever evolving threat landscape.
    We must all continue to work to ensure that TSA is able to 
adapt as well as stay ahead of those threats that we face as a 
nation.
    I would like to now turn it over to Ranking Member 
Cantwell, and it is really is an honor to serve with her on 
this subcommittee.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Ayotte, and welcome 
to the Chair position, and I enjoyed working with you in 
similar capacities, so I am sure together we will continue to 
focus on aviation and I look forward to the series of hearings 
that we have set up over the next few weeks.
    Acting Administrator Carraway, thank you for testifying 
here today. The Transportation Security Administration's 
mission has remained constant for the 13 years since this 
committee created the agency to protect our travelers and our 
transportation system.
    In the time since the agency was first authorized, the 
threats facing our transportation network have evolved to 
protect the traveling public and need to continue to evolve. 
There have been obstacles and missteps along the way, but we 
all appreciate the hard work and dedication that the men and 
women there have made to keep us safe.
    To ensure the free and safe movement of people and goods 
and services through the transportation system, TSA has 
adapted. Security measures have been reactive at times but the 
shift from one-size-fits-all approach to a risk-based security 
has mitigated certain burdens for travelers. For example, 
children and older Americans no longer have to remove their 
shoes, and low-risk passengers can avail themselves of 
expedited screening through the Pre3 program, which is now 
active at 119 airports.
    The $7.3 billion TSA budget proposed by the Administration 
continues to develop the agency's multi-layered risk-based 
approach which has improved security while creating 
efficiencies and enabling commerce.
    Through investments in workforce training and terrorist 
watch list systems, TSA is building a counterterrorism 
workforce and enabling intelligence and data driven decisions. 
Analyzing and leveraging this information to better identify 
the threats enables TSA to maximize the coverage where needed 
through a variety of tools such as the Federal Air Marshal K-9 
Units, VIPR teams, and other behavioral detections, TSA can 
match each threat with the necessary levels of security.
    This ability to adapt security to the threat level is 
crucial for our success. We recently saw this in action when 
TSA addressed emerging threats from abroad by requiring 
travelers at their final part of departure into the United 
States to open and activate certain electronic screening 
devices.
    This intelligence-driven decisionmaking is critical to our 
success in combating terrorist threats. We must also thank our 
international partners since we are not in this alone, and TSA 
does important work with foreign nations to ensure that our 
passengers are appropriately screened before boarding planes 
headed back to the U.S. As with so many international efforts, 
this is no small task.
    Another major area of concern for all of our intelligence 
and security forces is the increased presence that terrorist 
groups have on the Internet as a terrorist organization uses 
the Internet to recruit followers, to disseminate instructions, 
and to share information about perceived security 
vulnerabilities. We must remain vigilant to improve our 
security posture.
    While there are important investments in intelligence 
capability and aviation security, this budget also contains 
cuts to service transportation security and VIPR teams, which I 
hope you will address today.
    Acting Administrator Carraway, our transportation system, 
our railroad system, our pipeline networks are all vitally 
important, and must be secure.
    In recent years, there have been a number of surface 
transportation facilities under attack in places like Russia 
and Mumbai, London and Madrid, as well as threats in New York 
and Washington, D.C.
    We cannot allow our focus to be so narrow that we do not 
focus on preparing for those other types of transportation.
    Thank you for being here today, and we look forward to your 
continued mission of the TSA. Thank you.
    Senator Ayotte. Thank you. We are very honored to have Mr. 
Carraway here today, and he is the Acting Administrator of the 
Transportation Security Administration.
    Mr. Carraway?

                 STATEMENT OF MELVIN CARRAWAY,

         ACTING ADMINISTRATOR, TRANSPORTATION SECURITY

      ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Carraway. Good afternoon, Madam Chairman Ayotte. Thank 
you for inviting me, and Ranking Member Cantwell, and 
distinguished members of the Subcommittee. Thank you for the 
opportunity to appear before you today.
    TSA is tasked with protecting the nation's transportation 
systems and has developed its Fiscal Year 2016 budget request 
with three priorities in mind, advancing risk-based security, 
enhancing workforce engagement, and improving organizational 
efficiency.
    TSA could not accomplish this mission without a trained and 
equipped workforce. In recent years, the adversaries we face 
have become more inventive, persistent, and adaptive in design, 
construction, and concealment of explosives, and they are not 
isolated to a single country or a single region of the world.
    As such, TSA is working to mitigate the risk we all face 
when traveling from, within, and to the U.S.
    In Fiscal Year 2014, transportation security officers 
screened 650 million passengers and more than two billion 
carry-on and checked bags, preventing approximately 105,000 
dangerous prohibitive items, including 2,300 firearms, from 
being carried onto planes.
    Additionally, Federal Air Marshals flew thousands of 
flights domestically and internationally providing in-flight 
security for high risk routes. Visible Intermodal Prevention 
and Response, VIPR, teams conducted almost 17,000 operations.
    Transportation security inspectors completed over 1,054 
airport inspections, including 17,894 aircraft operator 
inspections, and 2,959 foreign air carrier inspections, to 
ensure compliance with rules and regulations, and TSA's vetting 
systems perpetually vetted 14.8 million transportation worker 
records each day against the Terrorist Database.
    Our risk-based security initiatives boost the effectiveness 
of security resources by focusing them on high risk and unknown 
travelers and commerce, while at the same time facilitating the 
efficient movement of legitimate travelers, and commerce and 
trade.
    As a result, TSA's RBS initiatives are responsible for 
approximately $350 million in savings over the past two years. 
There are now 132 airports offering expedited screening through 
TSA's Pre3, and 326 enrollment centers have processed an 
enormous amount of individuals.
    As a result, TSA increased the percent of passengers 
receiving some sort of expedited screening from 9.6 in 
September 2013 to 44.3 one year later. TSA's Pre3 volume has 
increased 100 percent since 2013.
    To help facilitate greater participation in our expedited 
screening initiatives, TSA is exploring private sector 
enrollment capabilities leveraging industry's expertise.
    The President's budget for Fiscal Year 2016 includes $7.3 
billion for TSA, which represents a sever percent decrease and 
savings of $653 million in appropriated funding. The Fiscal 
Year 2016 budget includes a reduction of $119 million and 1,748 
personnel related to workforce savings from RBS efficiencies.
    As RBS measures change the nature of airport screening 
operations, including reducing the number of necessary lanes, 
TSA can reduce the number of transportation security 
specialists-explosives, we call them TSS-Es, resolve checkpoint 
alarms when a suspected threat is detected with fewer screeners 
and improved technology. Fewer TSS-Es are required. This will 
result in a reduction of $2 million and 18 employees.
    Additionally, TSA recently conducted an analysis of 
inspection data and risk sources to drive and prioritize the 
inspection activity as a result. TSA is proposing a reduction 
of $6.5 million and 64 employees.
    In April 2012, TSA established the TSA Academy located at 
the Federal Law Enforcement Training Center in Glynco, Georgia, 
and joined more than 92 partner organizations to train at 
FLETC. The Academy's initial course offering taught 
``Essentials of Supervising Screening Operations'' led by 
dedicated groups of instructors and facilitators, including 
Academy staff, Federal Air Marshals, and Federal Security 
Directors.
    In support of TSA's efforts to further professionalize its 
screening workforce, the budget request includes $2.5 million 
to expand mission essential training at the TSA Academy. The 
funding will expand training staff to serve more employees and 
support beneficial follow on training.
    The budget request also supports an increase of $5.2 
million to hire and train additional FAMs. The last class of 
Federal Air Marshals came on board on September 11, 2011. It is 
again time for this vital program to refresh its ranks.
    The President's budget also includes funding to support 
Department-wide initiatives related to cybersecurity, 
requesting $2.9 million for remediation efforts to achieve 
critical network infrastructure protection.
    As TSA continues applying risk-based security principles 
throughout the organization, we must continue investing in the 
workforce we need to ensure our future successes. Through hard 
work and operational efficiencies, we are becoming a smaller, 
more capable workforce.
    Madam Chair, thank you again for the opportunity to discuss 
the President's Fiscal Year 2016 budget for TSA. I look forward 
to working with the Committee, and I am pleased to answer any 
questions that may arise.
    [The prepared statement of Mr. Carraway follows:]

     Prepared Statement of Melvin Carraway, Acting Administrator, 
  Transportation Security Administration, U.S. Department of Homeland 
                                Security
    Good afternoon Chairman Ayotte, Ranking Member Cantwell, and 
distinguished members of the Subcommittee. Thank you for the 
opportunity to appear before you today to discuss the President's 
Fiscal Year (FY) 2016 Budget Request for the Transportation Security 
Administration (TSA).
    TSA is a high-performing counterterrorism organization, applying a 
multi-layered, intelligence-driven, risk-based approach to protect the 
Nation's transportation systems, including aviation, mass transit, 
rail, highway, and pipeline. In support of this mission, TSA developed 
the FY 2016 budget request with three priorities in mind: advancing 
risk-based security, enhancing workforce engagement, and improving 
organizational efficiency.
    TSA could not accomplish this essential mission without a workforce 
trained, equipped and committed to the safety and security of this 
Nation. Each of our more than 50,000 personnel remains steadfast in the 
face of a threat that has not diminished more than a decade following 
the terrorist attacks on September 11, 2001. In fact, over the years, 
the adversary has become more inventive and persistent, while at the 
same time growing and spreading to other countries and regions. We 
continue to face a real and persistent threat from adversaries adept in 
the design, construction and concealment of explosives. As such, TSA is 
evolving our approach to transportation security and to mitigate risks 
we all face when traveling from, within and to the United States. I am 
proud of the employees on the frontlines who conduct themselves as true 
professionals in the performance of their daily duties.
    In pursuit of TSA's mission, in FY 2014, Transportation Security 
Officers screened approximately 650 million passengers, and more than 2 
billion carry-on and checked bags, preventing approximately 105,000 
dangerous prohibited items, including 2,300 firearms, from being 
carried onto planes. TSA also screened a daily average of 6 million air 
passengers against terrorist databases.
    Additionally, Federal Air Marshals (FAMs) flew thousands of flights 
domestically and internationally providing in-flight security for high 
risk routes; Visible Intermodal Prevention and Response (VIPR) teams 
conducted almost 17,000 operations; Transportation Security Inspectors 
(TSIs) completed over 1,054 airport inspections, 17,894 aircraft 
operator inspections, and 2,959 foreign air carrier inspections to 
ensure compliance with rules and regulations; and TSA's vetting systems 
perpetually vetted 14.8 million transportation worker records each day 
against the Terrorist Screening Database.
Risk-Based Security (RBS)
    TSA continues to deploy multi-layered, intelligence-driven, risk-
based initiatives to enhance security. These risk-based security 
initiatives boost the effectiveness of security in a more efficient 
manner, by directing resources focused on high-risk and unknown 
travelers and commerce, while at the same time facilitating the 
movement of legitimate travelers and trade. In addition, TSA has 
enhanced the customer experience for the traveling public. RBS methods 
have proven more efficient in moving people through the checkpoint than 
standard screening lanes, requiring fewer screeners and fewer lanes 
than traditional screening operations. As a result, TSA continues to 
gain efficiencies through RBS initiatives, with savings of 
approximately $350 million over the past two years at airports.
    In order to bolster the ongoing success of RBS initiatives, TSA 
continues to expand the prescreening process by increasing the number 
of known, lower-risk travelers eligible for expedited screening. TSA 
has made substantial strides in RBS including:

  <bullet> Increasing the number of airports with TSA Pre3 screening 
        lanes to 132;

  <bullet> Establishing 559 dedicated and supplemental TSA Pre3 lanes; 
        and

  <bullet> Adding TSA Pre3 Application Program enrollment sites at 326 
        centers, which have processed nearly one million applicants.

    TSA continues to work closely with airlines to expand the number of 
air carriers participating in TSA Pre3, enhance Known Crewmember, and 
extend eligibility for TSA Pre3 to U.S. Armed Forces personnel and 
Department of Defense civilian employees. In November 2014, TSA offered 
TSA Pre3 expedited screening benefits to students of the four U.S. 
service academies. On average, more than 60,000 Department of Defense 
employees benefit from TSA Pre3 on a weekly basis.
    Through these measures, TSA increased the percent of passengers 
receiving some form of expedited screening from 9.6 percent in 
September 2013 to 44.3 percent a year later. TSA Pre3 volume has 
increased 600 percent with more than 300 million passengers receiving 
expedited screening, since 2013. More than 12.5 million passengers were 
screened between November 26 and December 2, a 1.3 percent increase 
from 2013. Of the record number of travelers flying over this past 
holiday season, nearly 50 percent experienced expedited screening. In 
addition, nationwide, 99.6 percent of passengers moved expeditiously 
through checkpoint lines, waiting less than 20 minutes in line.
    TSA continues to focus on increasing the population of known and 
trusted travelers receiving TSA Pre3 by expanding participation to 
additional U.S. and foreign air carriers, identifying and enrolling 
more trusted populations. In addition, TSA is exploring private sector 
enrollment capabilities, leveraging industry expertise in marketing and 
offering additional opportunities for enrollment beyond the existing 
326 centers currently in existence across the Nation.
    TSA's multi-layered approach to screening also includes real time 
threat assessments through the deployment of behavior detection 
techniques, explosives detection canines and explosives trace detection 
equipment, and risk-based physical screening utilizing differentiated 
screening procedures and technology applications.
    Our RBS security efforts are part of a strategic application of 
intelligence-driven risk mitigation principles that moves away from the 
one-size-fits-all approach to security. TSA will continue to focus on 
adopting risk-based approaches to other aspects of aviation security, 
including checked baggage, air cargo, regulatory compliance, and 
through the identification of potential enhancements to FAM 
deployments.
Budget Highlights
    The FY 2016 President's Budget includes total funding of $7.3 
billion for TSA. This represents a 7 percent decrease in TSA's overall 
budget, and a savings of $653 million in appropriated funding, over the 
past five years, if the FY 2016 request is enacted. This funding 
supports TSA's three strategic priorities constituting the basis of 
TSA's budget request.
Risk Based Security
    TSA continues to promote the most effective security in the most 
efficient manner. The implementation of RBS initiatives has resulted in 
a smaller, more professional and capable workforce. The FY 2016 budget 
includes a reduction of $119 million and 1,748 personnel related to 
workforce savings due to RBS efficiencies. This includes a reduction of 
$110.5 million and 1,666 full-time equivalents (FTE) from the screener 
workforce due to a more efficient screening process requiring fewer 
personnel.
    As TSA RBS measures change the nature of screening operations, 
including reducing the number of lanes and transitioning to a smaller, 
more professional workforce, TSA is able to reduce the number of 
Transportation Security Specialist-Explosives (TSS-E) personnel by 18 
employees and $2.0 million. TSS-Es resolve checkpoint alarms when a 
suspected threat is detected, and train TSOs to better recognize 
characteristics of explosive devices. This program will continue to 
operate in the Nation's largest airports, but with fewer screeners and 
improved technology, fewer TSS-Es are required for the training 
responsibility.
    Additionally, TSA recently conducted an analysis of inspection data 
and risk scores to drive and prioritize inspection activity. That 
information, along with the latest intelligence, will be used to deploy 
Transportation Security Inspectors to focus on those areas with higher 
risks and those parties requiring additional oversight to improve 
security compliance. As a result, TSA is proposing a reduction of $6.5 
million and 64 employees.
Workforce Engagement
    In April 2012, TSA established the TSA Academy located at the 
Federal Law Enforcement Training Center (FLETC) in Glynco, Georgia and 
joined more than 92 partner organizations who train at FLETC. The 
Academy's initial course offering was the Essentials of Supervising 
Screening Operations led by a dedicated group of instructors and 
facilitators including Academy staff, Federal Air Marshals (FAMs), 
Federal Security Directors, and members of the FLETC Leadership and 
International Training Division. The course was designed and developed 
for delivery to our more than 4,500 Supervisory Transportation Security 
Officers. By the end of FY 2014, 167 classes were delivered and 4,568 
participants trained, including training for Lead Transportation 
Security Officers, Transportation Security Inspectors, Security 
Training Instructors, and TSS-E personnel.
    In support of TSA's efforts towards professionalization of the 
screening officer workforce, the budget request includes $2.5 million 
to expand mission essential training at the TSA Academy. The funding 
will expand training staff to serve more categories of employees and 
support follow-on training that will continue to build upon an 
established foundation.
    The budget request also supports an increase of $5.2 million to 
hire and train additional FAMs. These efforts will include recruitment 
of women and veterans which will enhance the diversity and skill set of 
our workforce. The last class of FAMs came onboard on September 11, 
2011. Hiring will allow this vital program to refresh its ranks, and 
assign new hires to locations of strategic value based on risk-based 
principles and in accordance with a newly developed Concept of 
Operations governing strategic deployment of FAMS on high-risk flights.
    In FY 2016, the FAMS will finalize the workforce realignment begun 
in FY 2015, through the closure of the final two of six offices. Upon 
completion of the workforce realignment, resources will be positioned 
with greater strategic value, enhancing the ability of the organization 
to schedule FAMs on missions of the highest criticality, thereby 
ensuring the most effective security in the most efficient manner.
Department-Wide Initiatives
    TSA's budget includes funding to support Department-wide 
initiatives related to cybersecurity and Watchlist services. TSA 
requests $2.9 million for cybersecurity remediation efforts to achieve 
the Department of Homeland Security's goal of remediating all known 
vulnerabilities in the most high-risk systems by FY 2017, thereby 
enhancing critical network infrastructure protection.
    TSA utilizes the Watchlist Service, which provides terrorist 
screening data to DHS components. The request includes an increase of 
$2.8 million to automate currently manual processes. Once completed, 
real-time updates will be available to TSA and other users of the 
Watchlist Service.
Conclusion
    As TSA continues applying risk-based security principles throughout 
the organization, we must also continue shaping and investing in the 
workforce we need to enable our future successes. Through hard work and 
a focus on efficiency, we are becoming a smaller, more capable 
workforce. I am committed to developing, training and equipping that 
workforce to continue providing the most effective security in the most 
efficient manner.
    Mr. Chairman, thank you again for this opportunity to discuss the 
President's FY 2016 budget request for TSA. I look forward to working 
together and will be pleased to answer any questions you may have.

    Senator Ayotte. Thank you for your testimony, Mr. Carraway. 
I wanted to follow up with you on what I had asked about in my 
opening statement, the Transportation Security Acquisition 
Reform Act, that we had worked on, and signed into law late 
last year. It does have a number of good government provisions.
    Can you give me an update on how it is going on 
implementing the Act?
    Mr. Carraway. Let me first say thank you very much. It has 
made a difference. Our Acquisition Department has used the 
initiative very well. In fact, last week we had industry 
partners engaged in the activity at headquarters. I met with 
them and discussed moving forward. It is engagement like this 
that the bill really brought to bear, and our Acquisition 
Department is using it very rigorously as we move forward.
    I will be able to provide you further details about 
improvements that have occurred as we go forward, but I can 
tell you it has made a difference, both in processes and uses, 
and discussions with the industry as well.
    Senator Ayotte. Great. You had said you just had recent 
meetings with the industry, one of the parts of it is the five 
year investment plan that I know is being put together by the 
agency.
    In that, will you be engaging the private industry in that 
plan, and also give them an opportunity to give you feedback on 
a draft of it?
    Mr. Carraway. Yes, I will. What you indicated at the very 
beginning of your opening remarks is about partnerships. My 
background is built on partnerships, as my discussion was with 
industries, partnerships is going to drive us moving forward, 
and I will be engaging them through that process.
    Senator Ayotte. Thank you so much. With that, I assume all 
of the partnerships, including security technology 
manufacturers are involved in the development of it?
    Mr. Carraway. They were all present at the meeting; yes.
    Senator Ayotte. Great. Fantastic. I look forward to an 
update on that as you are able to implement the Act, and any 
feedback you have in terms of how we can continue to work on 
this issue to improve acquisition at TSA.
    Mr. Carraway. I will do.
    Senator Ayotte. One of the other issues I wanted to ask 
about is as we look at some of the issues I raised in my 
opening statement, the alleged misconduct by the Federal Air 
Marshals that has been reported in the news recently, I 
understand that it is probably under investigation, but can you 
share with us what you can in terms of ensuring that we have 
the type of professionalism and integrity in such an important 
security service within TSA?
    Mr. Carraway. Let me begin by saying I deplore, do not 
tolerate misconduct, behavior that brings discredit to the 
agency. I act and have my staff act on those issues very 
swiftly.
    It is important to show accountability, not just at the 
leadership level, but accountability also down to the 
workforce. That is what I demand of the folks in TSA, because 
our mission is so critical, so accountability becomes so 
important.
    I cannot speak to the particulars of any investigation, but 
I can tell you that we have made significant changes not just 
in the FAM Service but throughout TSA, by enlisting OPR, which 
is our Office of Professional Responsibility. We have done 
integrity testing continuously with our workforce.
    In regard to the FAM Service, we have done an overhaul of 
our FAM Service. The leadership, new leadership have been 
brought into the FAM Service. It is an overhaul of all their 
operations to create a check and balance in all of their 
operations to include the TSOC, which is the Transportation 
Security Operations Center, our Mission Control Center, and all 
those efforts that are involved.
    We have auditing that has also been done. This occurred 
immediately at the change of leadership.
    Senator Ayotte. Great. Thank you for that. In turn, I also 
wanted to cover the issue that arose with the security 
identification display area badges. How do we ensure that those 
types of abuses do not occur again where we have, as I 
understood it, a number of badges that were unaccounted for, 
and we obviously want to make sure that those do not end up in 
the wrong hands.
    Mr. Carraway. TSA is a regulatory agency. Our 
responsibility is to oversee the airports and their use of 
badges.
    In the instance we are talking about here, there is always 
a second biometric that is instilled in those badges. Although 
they may be missing, some not accounted for, the use of them is 
probably pretty limited because of the biometric effort that is 
instilled.
    For example, in Dallas/Ft. Worth, which I am very familiar 
with, they require a palm print in addition to the face image 
that is also on the card before you enter into the process. 
Some require a PIN number, as Atlanta does. Other similar 
biometrics are attached to the cards.
    Although they may be missing, there are some other security 
safeguards that are in place, but that does not excuse the 
missing or not accounted for cards. We have the ability to hold 
the airports accountable for those cards, and in many cases, we 
do if the excuse or the reason or justification is not applied 
appropriately.
    Senator Ayotte. Great. Thank you. Senator Cantwell?
    Senator Cantwell. Mr. Carraway, I know budget challenges 
are always top of mind, and one of the issues of allocating 
scarce resources are about how we work with our various 
airports as they try to integrate new equipment as well.
    I want to ask particularly about TSA's level of support for 
in-line baggage screening at some of our smaller hubs, because 
they are obviously trying to keep pace.
    The FAA through discretionary grants and AIP entitlement 
funds is supporting a much needed terminal expansion at the 
Tri-Cities Airport in Pasco, and a regional non-hub airport 
located in the southeast part of our state. They just 
experienced an annual growth rate of something like 12 percent.
    The FAA is helping them, but they do not support the 
installation of the new in-line baggage screening operation. 
How does TSA work hand in hand with the FAA on these 
installations, and how do you fairly evaluate these proposals 
for in-line screening?
    Mr. Carraway. Typically, we want to make sure that the 
planning up front is fully done, and in many cases, there 
happens to be a lot of changes that occur. Allocating funds or 
setting aside funds becomes very difficult in those situations.
    We deal with them talking about how the changes are going 
to occur, and when we can help them appropriately, we do so. We 
are constantly engaged with FAA on any changes that occur, and 
we keep in line with our budget in regard to that.
    We just simply cannot make promises to a system that may 
not be fully implemented or designed properly, so we do not 
allocate any funds in that regard until we know that has really 
been secured.
    Senator Cantwell. As far as major hubs versus smaller 
airports, you help both; right?
    Mr. Carraway. Oh, yes. That is what I meant.
    Senator Cantwell. Since TSA was created, obviously we have 
seen all sorts of different types of threats and they continue 
to evolve, so what is the process for trying to improve the 
screening process for the future as opposed to the past, and 
what the last incident was?
    Mr. Carraway. Well, I best can explain it by talking about 
RBS that has moved from an idea, risk-based security, to a 
philosophy within TSA. In every aspect, we use that moving 
forward to assure that the resources that we use are moved in a 
direction that is going to provide us utility in regards to a 
threat.
    I have a briefing each and every morning in regards to what 
that threat may be. In the past, we have known that the threat 
has been an entity, al-Qaeda, or some other group. Now, the 
threat has sort of metastasized. It is decentralized. Our 
efforts continue in addressing with our partners domestically 
and internationally ways to address that.
    Any of those determinations are best used at the 
checkpoint, whether it is for EDO experiences, K-9s, or new 
technology that we bring to the table as well. We always 
attempt to stay ahead of the threat, and RBS allows us to do 
that.
    Senator Cantwell. Thank you. Thank you, Madam Chair.
    Senator Ayotte. Thank you, Senator Cantwell. Senator 
Peters? Senator Peters stepped out. Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much to both the Chair and 
the Ranking Member for holding this really important hearing, 
and it is great to have you here, Mr. Carraway, your first time 
testifying before Congress.
    I am really grateful not only for you being here but really 
for your service. You are a great American working to secure 
our nation, which is the most wanted tradition in our country.
    The security of our transportation modes is a critical part 
of the country's well-being in general. All the work you do on 
behalf of this country again is just critical in protecting our 
country, our livelihoods, and the most precious element of this 
nation, which is the people.
    I would be remiss if I did not also just thank publicly all 
the TSA employees for the hard work they do. They get a lot of 
hassle, but they do a lot of hard work day in and day out, 
dedicated professionals who should be recognized as such.
    Mr. Carraway. Thank you very much.
    Senator Booker. While we have made great strides to prevent 
terrorist incidents in the aviation sector, I think there is 
still work to do to improve gaps in our surface transportation 
system. If you look at the terrorist deaths, the attacks 
focused on surface transportation. In many ways, that is the 
more frightening reality globally, those soft targets.
    The security of surface networks may not garner as much 
attention but a large scale attack on our surface networks 
could result in a significant loss of life as we have seen in 
other countries, and also have devastating economic 
ramifications.
    I believe we need to be devoting a greater amount of 
resources to focus on our surface transportation security. In 
the 9/11 Commission Act, Congress required TSA to undertake 
several surface transportation security actions. Some of these 
have languished since 2007, like training the front line 
transit and freight employees. I understand that in the absence 
of TSA's guidance, many agencies have stepped up and 
implemented training programs themselves, but if we cannot get 
a training program out the door, it raises serious concerns 
about the agency and how it is using its resources.
    Mr. Carraway, the first question is what is taking so long? 
Can you apprise the Committee of that?
    Mr. Carraway. Let me begin by saying in 90 percent of our 
effort, the budget has been toward aviation because it seems 
the threat continues in the aviation sector, but that being 
said, it is important for us to show and demonstrate our 
reserve to deal with the surface area as well.
    VIPR teams do that. They are flexible. They are a resource 
that I think many in the local state sector have taken 
advantage of. We assist them on several levels. We also provide 
training to them as often as we can.
    This is one of the areas where partnerships really become 
very critical, and I support that wholeheartedly.
    We have a division that is specifically designed to address 
that issue. There are conference calls that we hold every week 
with the private sector, from pipeline to rail and other 
surface entities as well.
    We do stay engaged and we understand the importance of it 
and provide support to them as often in regard to the VIPR as 
much as we can.
    Senator Booker. I just want to say, and I know my time is 
going to end in a moment, I hope I have another round, just to 
remind the Committee, since the 9/11 terrorist attacks, there 
have been nearly 2,000 attacks against transit systems 
globally, resulting in close to 4,000 deaths.
    These attacks include the 2004 bombing of a commuter train 
in Madrid, which killed 191 people. The July 2005 bombing of 
the London subway trains and bus, which killed 52 people. The 
July 2006 attack on commuter attacks in Mumbai which killed 207 
people.
    And the May 2010 attack on a passenger train in India 
killing 148 people. More recently, December 2013, a suicide 
bomber killed 16 and injured at least 40 at a Russian train 
station.
    I understand 90 percent of our resources may be going to 
aviation, but anybody that is looking at a map of terrorist 
attacks since 9/11 would say hey, wait a minute, rail is really 
important.
    It is unacceptable to me, and I am not taking away from the 
really great leadership, I affirmed your leadership, this is a 
Senator who supports you, but I just think to have TSA 
congressional specifications of what should have been done to 
lie unaccomplished for 6 to 7 years is just unacceptable, and 
they should be addressed, given all these attacks.
    I guess in the 20 seconds I have left, I will try to sneak 
a question in, although Senator Ayotte may crush me on that, I 
just want to say really quick why is the surface transportation 
part of your budget actually being reduced in Fiscal Year 2016?
    Could you explain why TSA is requesting less funds in 
Fiscal Year 2016 for transportation security? With the leave of 
my chairman.
    Mr. Carraway. Yes, sir. Thank you very much for the 
question. It is because of the RBS initiative, the way we 
direct our activities. What we have taken is an account of all 
of those transit, rail, pipeline systems you account for, 
giving them a ranking, and what we do then is we move our 
resources to those high risk areas.
    When that is the case, we do not need as many bodies or 
employees to address that issue because we can focus upon where 
that high risk issue is. That is why RBS becomes effective to 
us, becomes efficient. We are using that manpower specifically.
    Also, I can tell you I have met many of the rail entities, 
from Amtrak, New Jersey to New York, Port Authority 
individuals, and have discussed these issues with them. We stay 
engaged at every level on the threat.
    Senator Booker. Thank you. I appreciate the indulgence of 
the chair in going over.
    Senator Ayotte. Senator Manchin?

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman. Again, Mr. 
Carraway, I piggy back on what my good friend, Senator Booker, 
had said about the TSA and how difficult the job is, and I know 
the abuse they take.
    The only thing I will say is they have an awful lot of my 
little pen knives that people give me and I forget to take 
them. If there is a way I can reclaim them, I would appreciate 
it, tell me where to go. There were some really sentimental 
ones there I lost. I would like to try to reclaim them.
    I want to take off on what Senator Booker talked about as 
far as trains. As you know, transporting crude oil now, and in 
just the last 4 years, from 2009 to 2013, shipment by rail has 
gone up 3,300 percent. They are expecting 10 more derailments 
this year.
    We just had a train derailment in West Virginia, it was 
just an unbelievable thing. Thank God we had no injuries. It 
was a miracle. If it had happened a mile or two prior to where 
they actually went and derailed, we would have lost maybe a 
whole community.
    With that being said, and I know Senator Booker was just 
telling you about the rules, nothing has been implemented. We 
are not getting these changes that we are going to desperately 
need. I want to know what efforts are ongoing that will reflect 
on the new reality of what we are doing within this country, 
and it is going to be growing exponentially.
    Mr. Carraway. I can certainly get back to you on that 
issue, let you know that all of those sectors within rail/
pipeline are important to me and to my staff as well. I can 
tell you with assurance and hope to give you confidence that we 
take those issues very swiftly. I will get back with you on 
what we can do and possibly what we can do further.
    Senator Manchin. The train rules as far as how we transport 
hazardous material in this country have not changed for quite 
some time. We are in jeopardy of losing an awful lot of lives, 
and we are having a tremendous amount of increase in that 
arena.
    The Pre3 facility, we have a new one at Tri-State Airport 
in Huntington. We are very appreciative of that. I understand 
you had a 600 percent increase since 2013.
    Mr. Carraway. Yes, sir.
    Senator Manchin. It is just unbelievable. It is giving 
legitimate travelers, honest law abiding citizens of this 
country, a way to expedite, and I appreciate that.
    In response to the CBS story that ran last November about 
standard screening lanes merging with the Pre3 lanes, I think 
it is important to get a clearer picture of why and when these 
mergers take place, and what is being done to ensure that a 
lone wolf factor, as we are hearing an awful lot about or 
seeing, or other potential terrorists are not slipping through 
those cracks, if they are merging along those lanes.
    Mr. Carraway. If I can explain to you the difference 
between the standard lane and the Pre3 lane. The Pre3 lane 
operates at about 300 passengers an hour, a standard lane, 
about 170, or half that, 150, an hour.
    Senator Manchin. Pre3 has more volume?
    Mr. Carraway. Yes, and I can explain to you why. What 
happens is because we have used the RBS principles, we know 
about those individuals that are going through the Pre3 lane. 
We know more about them, they are at low risk, so they are not 
taking off their jackets or shoes, so they are passing through 
that quicker.
    It may appear to those that that lane is longer, when in 
actuality they are actually going faster, sort of like being at 
the----
    Senator Manchin. I think the concern is when they merge.
    Mr. Carraway. What happens is if you are designated for 
Pre3, you will go through the Pre3 lanes, and you will get 
that security. Typically, sometimes, because of the way the 
airport is constructed, they will know when they come up they 
will say I am Pre-Checked, so they will go through without 
taking off their jackets and shoes. Those in the center lane 
will simply proceed as usual.
    What happens that probably is not really noticed, besides 
knowing much about the individual is in the Pre3, there is a 
possibility that individual will have an ETD, explosive trace 
detection on their hands, there is a possibility they may 
receive a pat down, an additional pat down. There is the 
possibility even that an individual if a dog----
    Senator Manchin. My time is about to expire, if I may. Here 
is the problem. I go through the Pre3. I will use me as an 
example. I have a new knee, cobalt titanium knee. I have to go 
through the full body scan. Here in D.C. at Reagan, the Pre3 
does not do that. They have to walk me over to go through the 
body scan. In little Charleston, West Virginia, they make me 
hold a yellow tag. Here, they do not.
    What we are saying is could it be merged. Let's say I am 
really going through the full check, not the Pre3, the 
reason----
    Mr. Carraway. The reason it is difficult to merge those is 
because if you are in Pre3, the idea is to expedite that, to 
keep the lanes moving. That is how we gain our efficiency. That 
is how we gain the real benefit of----
    Senator Manchin. Yes, but as soon as they know I have to go 
through the full body scan, they send me over here.
    Mr. Carraway. Right.
    Senator Manchin. I could very easily have been somebody on 
the airline and got right in with me and snuck through maybe. 
You do not think?
    Mr. Carraway. I do not think so. I really have a great deal 
of confidence in my people.
    Senator Manchin. If you get my pen knives back, I will let 
you slide on that.
    Mr. Carraway. Yes, sir.
    Senator Manchin. Thank you, Madam Chairman.
    Senator Ayotte. Thank you, Senator Manchin. Those of us 
that serve with you in the Senate can understand why you might 
be undergoing some additional scrutiny.
    [Laughter.]
    Senator Ayotte. I just saw that Senator Blumenthal arrived. 
Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much. Thank you for 
being here, thank you for your service. I want to follow up on 
some of the questions that I heard Senator Booker ask about 
surface transportation, because I think one of the 
misconceptions that is widely shared, one of the common 
misconceptions, is that the TSA focuses only on air transport.
    Do you think there is a need for more funding and maybe 
more allocation of resources to surface transportation, and if 
so, where in the country, and what kind of surface 
transportation?
    Mr. Carraway. I do not want to assume, being positive about 
resources from a budget perspective will happen. I can just 
address it from what I know that we have done heretofore, and 
how we are proceeding with issues as it relates to the surface 
environment. Our FAMs are very flexible in using the VIPRs. In 
the VIPRs, we have transportation inspectors. We have 
behavioral detection officers. Often, there are K-9s as well.
    What they do is they assess in their communities, in their 
regions, where the highest risk is. They have communication 
with rail, pipeline, and other surface entities to determine 
where their best use would be, and they are then allocated and 
they then serve to support what the state and local agencies 
are doing in that area as well.
    That indicates and I believe is the best use of our 
resources to address where those high-risk areas are. Who knows 
them best than the locals that are there. We partner with them 
to move in that area. That is how we address the issues.
    Senator Blumenthal. What would you say is the greatest 
threat? I ride the train very frequently going back up to 
Connecticut. What should I be looking for?
    Mr. Carraway. What frightens me more so than anything else 
in talking to our partners in Amtrak and others is that 
individual that may be carrying a backpack or device of some 
type to create harm.
    Senator Blumenthal. With a bomb?
    Mr. Carraway. Yes, of course.
    Senator Blumenthal. How often have you found those kinds of 
devices on trains?
    Mr. Carraway. Well, we have not found any, but I believe 
what the deterrent is, the deterrent such as the FAMs, Amtrak 
Police, Port Authority officers, those are deterrents because 
you never know where they may end up, and that is the 
flexibility that the VIPRs actually bring to the table.
    Senator Blumenthal. Let me shift topics for a moment. The 
Pre3 system, who actually supervises and maintains control, 
who actually runs that system?
    Mr. Carraway. I am not exactly sure I understand your 
question.
    Senator Blumenthal. Do you, for example, determine when 
Pre3 is open or not open at an airport?
    Mr. Carraway. It is the TSA Federal Security Director (FSD) 
in conjunction with the loads that may be happening at the 
airport, the events that may be happening at the airport 
environment. They look at what the schedules are with the 
airlines, with the airports, and the FSD, the Federal Security 
Director, is responsible for opening or closing the Pre3 
lanes.
    Senator Blumenthal. You as Acting Administrator do not have 
control over that?
    Mr. Carraway. No. That responsibility is to the Federal 
Security Director; yes, sir.
    Senator Blumenthal. Finally, let me just say as a frequent 
traveler and I interact with a lot of TSA public servants, and 
they are almost uniformly very polite and careful and courteous 
and professional, I have no personal complaints about them.
    Have the complaints that you have received from the public 
trended in one way or another?
    Mr. Carraway. Thank you for that question. Before I left 
the office, I was asking about that issue. I was pleasantly 
pleased to find that 80 percent of the comments from the public 
that we have received within the last six months have been 
very, very positive.
    Obviously, Pre3 has sort of helped that, but 80 percent of 
them have been positive. I was very happy about that.
    Senator Blumenthal. Great. My time has expired. I thank you 
for being here.
    Mr. Carraway. Thank you.
    Senator Ayotte. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Very good. Thank you so much, sorry I 
have been a little late here. We had some things going on.
    I wanted to start out with a pretty serious topic. In our 
state, we have had now, since November, several people 
attempting to travel to the Mideast to join ISIS and others 
have joined in the past Al-Shabaab. In fact, we have had 20 
indictments out of Minnesota, including nine convictions out of 
the U.S. Attorney's Office for people that have tried to help 
or have helped Al-Shabaab.
    How is information such as the No Fly List or biometric 
data being disseminated amongst allies to prevent someone 
believed to have been trained by terrorists from boarding a 
plane without additional scrutiny?
    Mr. Carraway. We work very closely with our international 
partners in regard to travel of individuals, selectees 
particularly. Every morning, I have an intel briefing about the 
Watch List and those on the No Travel List to prevent that from 
happening. We monitor with the FBI, and other entities as well.
    We are very robust in reviewing travel patterns. May I say 
to you we are very cognizant of what is happening in your area. 
I have a visit coming up fairly soon, hoping to address the 
community there. We have been robust in our communication 
outreach to hopefully address the issue of radicalization, and 
we will continue to do that. I will be able to report back to 
you on how successful----
    Senator Klobuchar. Thank you. That is the other part of the 
concern, obviously. I know our U.S. Attorney has been working 
with you on that. Thank you.
    In 2012, the No Hassle Flying Act, which I introduced with 
Senator Blunt, was signed into law. This legislation allows the 
TSA to waive domestic baggage rescreening for luggage that has 
already been screened by U.S. Customs and Border Protection at 
a foreign airport, such as one of the eight airports in Canada 
that actually have pre-clearance facilities. It was very 
important they have those kinds of facilities.
    How is implementation of this law proceeding?
    Mr. Carraway. It is going fairly well. In fact, I had a 
meeting yesterday with a couple of airlines about that issue. 
Our Canadian partners are very, very engaged. Their use of 
standards that we require has been continually met, which 
obviously is a requirement. It is important they maintain to 
the U.S. standards, and that has been done. We are engaged very 
actively with them. Thank you for that.
    Senator Klobuchar. Thank you. Can you comment on the 
effectiveness of this law as an example of risk-based security?
    Mr. Carraway. Definitely. Again, these individuals are 
vetted before they come through into U.S. ports, and that is 
the beauty of this initiative. It allows them to move directly 
to any other travel they have once they enter the U.S. with 
their bags. It has been very, very effective.
    Senator Klobuchar. We are really proud of our hub airport 
in Minnesota, as you know. Have you been there?
    Mr. Carraway. Yes, I have, love it.
    Senator Klobuchar. Were you able to say that to Newark 
and----
    [Laughter.]
    Mr. Carraway. I love Newark Airport.
    Senator Klobuchar. Yes, but we have like really cool 
restaurants. All right. We have, as you saw, invested in a lot 
of new infrastructure and modernized our facilities to improve 
the traveler experience, and these efforts can also help make 
your job easier by streamlining passenger flows by how we have 
made some of these restructures.
    However, this is the problem from our airport's 
perspective, I just met with them last week. We find these new 
structural ways to help with efficiency and then you guys 
reduce your staffing, which is good, but then it neutralized 
the benefits, then we are kind of back to the same staff lines. 
Do you see what I mean?
    Mr. Carraway. Yes.
    Senator Klobuchar. We gained some efficiencies. Have you 
heard this concern before, and how do you get at it? You want 
to find that middle ground where you reduce some staffing, of 
course, to save money, but then we still have some benefits 
from expending the money on the infrastructure changes.
    Mr. Carraway. The way I answer that is to remember that RBS 
and Pre3 within itself is a security initiative. That when 
applied appropriately can provide increase of passenger 
experience.
    When it comes to smaller airports, it is a difficult 
balance in doing that. From our perspective, I always have to 
put that security initiative first, which sometimes makes a 
difficulty in smaller airports.
    Senator Klobuchar. OK. Thank you very much.
    Mr. Carraway. You are welcome.
    Senator Ayotte. Thank you. Mr. Carraway, I wanted to ask 
you, it is my understanding when we talk about the TSA Pre3 
program that airport operators are eager to partner with TSA to 
expand enrollment in Pre3 where appropriate.
    What is your assessment of a direct role for airports in 
enrolling perspective participants into the program using 
airport capabilities and systems already in place at their 
facilities? We obviously can look at how much it is going to 
cost and if they are using existing facilities, that helps. Can 
you update us on how we are engaging airports to increase 
participation where appropriate?
    Mr. Carraway. We are really looking forward to increasing 
Pre3 enrollment. One of the things that we are looking to do 
now is to engage a third party enrollment partner with us for 
Pre3 as well. The airlines bringing international carriers 
into the mix would increase enrollments as well.
    As relates to the design and construction of airports, we 
try to minimize taking up space in the airport because we know 
that in a lot of places it is minimum. The airports today were 
not constructed for some of the efforts that we are doing.
    As they begin to roll out such as Indianapolis, Orlando has 
done a significant change, Albuquerque, New Mexico has done a 
significant change, we are able to put in those Pre3 lines and 
they do not impact the airport in a negative sense.
    What we look for to include enrollment, international 
carriers, more frequent flyers if possible from the airlines, 
to include more individuals or Government employees that have 
been vetted with clearances already. Those are the efforts we 
are trying to do right now in addition to the private sector 
enrollment option.
    Senator Ayotte. Just to follow up, you said you were 
looking at engaging a third party contractor to help with this. 
I know you had an RFP up previously in December, and then it 
was removed. Can you explain to us why that was done, and do 
you plan on republishing relatively soon?
    Mr. Carraway. Yes. I had to pull back the RFP to do some 
technical changes, wanted to make certain that the language we 
were putting out would allow for all vendors, all those 
interested, to participate.
    I anticipate having that RFP back out to the public 
probably within the next week.
    Senator Ayotte. Very good. Thank you.
    Mr. Carraway. You are welcome.
    Senator Ayotte. I also wanted to ask about the coordination 
between airports and airlines, and what TSA is doing to ensure 
effective coordination as you respond to questions from 
travelers on new security initiatives or modified security 
initiatives.
    The other question I wanted to just get some insight on is 
that we know that the checked baggage screening technology is 
reaching the end of its useful life and needs to be replaced. 
Many airports are unaware of the time-frame for replacement of 
the systems. So how are you also communicating in terms of the 
technology deployment plan with airport operators to ensure 
they have enough time to modify their facilities to incorporate 
new screening technology?
    Mr. Carraway. Let me answer your last question first. We 
realize that a lot of the equipment is coming to its years. 
However, we believe that if we add new algorithms, we spiral 
use this type of equipment, we can extend the life out of it. 
We had those discussions with the airports.
    We do not want to come to this committee or to others and 
talk about purchasing new technology or new equipment without 
testing it completely. We want to make certain that it also 
meets our goals moving forward, that they are networked, that 
it can provide us information about the systems, and our 
success in detection capability efforts.
    That is what is happening at this particular point. We are 
engaged with the airports in just that discussion. As you well 
know, there is not a great deal of money sitting to move those 
forward, so we have to prioritize them, and we do that with 
each of the airports.
    Senator Ayotte. Great.
    Mr. Carraway. In regards to your other question, I travel 
extensively to meet with the CEOs of both the airlines and 
those managers of airports constantly. What I do is talk about 
the threat to them. I also talk to them about the operations. I 
also talk to them about how Pre3 and our security efforts can 
be increased.
    More importantly, we are a regulatory agency as well, so I 
want to make certain that issues such as perimeter security and 
employee access issues are being addressed, and certainly how 
they are operating within the environment.
    Those are the things that I do constantly, and I have my 
workforce, other managers, that do that as well.
    Senator Ayotte. I certainly do not want to be outdone by 
New Jersey or Minnesota. We would love to have you come visit 
Manchester, New Hampshire, and let me just tell you that the 
TSA agents that I interact with in New Hampshire are terrific, 
and they are very professional. We would love to have you.
    Mr. Carraway. May I tell you I have been to Manchester, and 
what a wonderful airport. I think it is at the top of the list, 
actually.
    [Laughter.]
    Senator Ayotte. We think it is at the top, too, so I am 
glad you agree. Thank you. I would like to call on Senator 
Booker.
    Senator Booker. Thank you so much, Chairwoman. I would like 
to second that Mr. Manchin's pen knives are very important. I 
might go out and buy him some now for his birthday.
    In all seriousness, I have a lot of grave concern again 
about surface transportation and surface protection. New York 
City, or what I like to call the ``Greater Newark Metropolitan 
Area,'' has a lot of dense rail traffic. We have seen what has 
happened to subways, rail transit railways and the like 
globally.
    In the area between Elizabeth, Newark, New Jersey, and New 
Jersey Turnpike, Amtrak's northeast corridor, Newark 
International Airport, and the busiest sea port on the East 
Coast, all overlap in what the FBI and Government officials 
from New Jersey have called the most dangerous two miles in 
America for terrorist targets.
    It is incredibly busy, densely packed, and filled with 
commerce and commuters. New Jersey is a great example of how 
vulnerable our surface transportation systems are to a 
potential devastating attack.
    The TSA is critical and must do everything in their power, 
in your power, to not just improve security at our airports, 
but also along our highways, rail, transit lines, and ports.
    I am concerned about a lower level of funding, especially 
when it seems like a lot of work that was required to be done 
six plus years ago has not been done, and because of my grave 
concern for the surface transportation in this dense region, I 
just want to ask if you would commit to working with me and my 
staff to address these transportation security issues.
    I am telling you right now again that if you look globally, 
there have been hundreds and hundreds and hundreds of deaths 
due to terrorist attacks on rail, on rail, on rail.
    I am just hoping that you can commit today, and my staff is 
prepared to work with you, just to try to push some of these 
projects that have been languishing forward, as well as to 
figure out what we can do to beef it up and invest more 
resources more wisely in accordance with risk assessments that 
you all are doing.
    Mr. Carraway. Senator, I give you my commitment, I will 
work with you and your staff to do just that.
    Senator Booker. Thank you very much. The last really quick 
question I have is I understand a TSA report from one year ago 
considered but ultimately decided against requiring law 
enforcement to be stationed at all times within 300 feet of TSA 
security check points. The decision was instead to recommend 
officers be stationed there only during peak travel times.
    Obviously, we all want to stop bad guys or gals before they 
get on a plane, and I have had law enforcement officers tell me 
that having a police presence at all times available to 
immediately respond at the TSA security check points is the 
best way to be prepared. They are unarmed, these TSA officials. 
If we have a situation like Los Angeles, at a non-peak time, it 
puts TSA officers in jeopardy as well as passengers themselves.
    Can you explain the thought process underpinning the 
decision to only station law enforcement officers within 300 
feet of the TSA's screening check points during peak travel 
times? Really, why not all times?
    Mr. Carraway. The short answer is resources. Many of the 
airport authorities do not have the resources to address every 
checkpoint. Every airport is not designed the same. Some 
airports, Long Beach has extensive access points, so the 
resources for them is just not possible for them to have a law 
enforcement officer every time at the checkpoint.
    What we do, what we have allowed to happen is for a minimum 
time of response to emergencies, we put that in an agreement 
with the law enforcement officers, the police departments there 
at the airport, so they have an amount of time in which to 
respond to issues that are happening there.
    In addition, we have completed about 79 percent of the 450 
airports in the U.S. and provided duress alarms at the TDC, 
which is the travel document checker stations, at the X-ray 
stations, and other critical component parts in the checkpoint 
environment that are available.
    We also have trained our officers about the active shooter 
issue. We have done a video. We have done drills about 
emergency access routes, things of that nature.
    I believe we have done a yeoman's task in providing 
knowledge, information, and availability from the law 
enforcement perspective as well as security perspective.
    Senator Booker. Mr. Carraway, I would just conclude by 
saying that clearly you are putting in a lot of work and 
effort, given the resources that you have, but I almost think 
in requesting for the budget, this might be an area in which we 
know we have a vulnerability.
    I, for myself, who travels a lot, can travel all the way up 
to the security check point with nobody checking my 
identification, nobody assessing my risk, and literally be in a 
position where I could do a tremendous amount of damage. Again, 
like we saw in Los Angeles.
    To me, when you have a lot of studies and even your own 
thought about the importance of having an armed officer within 
300 feet at all times, not to have it seems unacceptable.
    I just came from a hearing earlier today about all of this 
stuff we want to put down at the border costing billions and 
billions of dollars, and we cannot come up with the resources 
to put one armed officer within 300 feet to respond to a 
situation that we have already seen happen in Los Angeles. That 
seems a little weak to me, and again, not putting our 
priorities to where the security risks exist.
    Mr. Carraway. It is because realizing we will never have 
all of the dollars and all the resources available to us. It is 
the philosophy with in the RBS structure that we use those 
resources at the place where we recognize the highest risks to 
be.
    Certainly, I will consider that, Senator, and look into it, 
and discuss with other experts to see how that plays out.
    Senator Booker. Thank you very much, sir. Thank you very 
much, Chairman.
    Senator Ayotte. Mr. Carraway, I am going to ask you a 
couple more questions and then the Chairman of the Commerce 
Committee, Senator Thune, is on his way. We will not hold you 
too much longer unless Senator Klobuchar has anything else.
    Senator Klobuchar. No.
    Senator Ayotte. Great. I wanted to ask you a couple of 
follow-up questions about the Acquisition Act that we had 
talked about at the beginning. One of the issues I wanted to 
follow up on was how the TSA is planning to interface with the 
DHS Science and Technology Directorate to provide TSA 
requirements for research and development investment.
    Mr. Carraway. Just this past month, extensive meetings 
between the DHS S&T and our Office of Science Technology as 
well as Acquisitions about new technologies that are there, to 
ensure they are a part of the network system, the long planning 
initiative that we have for acquisitions of equipment and 
technology.
    They are the ones that actually will sometimes bring that 
new technology to us. It is our responsibility to ensure it 
meets the security perspective and meets the goals within our 
existing technology and planning moving forward. It has been in 
my estimation a very good partnership.
    Senator Ayotte. Great. Thank you. I see that the Chairman 
of the Commerce Committee, Senator Thune, is here, and I would 
like to call on him.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Madam Chair. Thanks for holding 
this hearing, and thank you, Mr. Carraway, for appearing before 
us today.
    Mr. Carraway. Nice seeing you again.
    The Chairman. Yes, likewise, it is nice to see you again. I 
do want to say, and I appreciate your service as Deputy 
Administrator and now as Acting Administrator at TSA, that I 
think it is critical to take steps to formally nominate an 
individual to fill the Senate-confirmed position of 
Administrator, and perhaps you will be that nominee.
    But Administrator Pistole gave us plenty of notice as to 
his intention to retire, over 5 months ago, and no action has 
been taken by the White House.
    As you may know, I along with many of my fellow committee 
colleagues, wrote to the President in January urging him to 
nominate such an individual. I am disappointed to report that 
we have not yet received a response to that letter, much less a 
formal nomination.
    TSA has, of course, the important task of protecting the 
nation's 660 million annual air travelers from terrorist 
threats and attacks, and there certainly can be ramifications 
as we witnessed last year when there was an one-year vacancy 
with the Administrator at the National Highway Traffic Safety 
Administration as the agency experienced an all-time record 
number of automobile safety recalls.
    We have seen terrorist groups like ISIS and al-Qaeda that 
continue to threaten western targets. We saw with the December 
issue of al-Qaeda's Inspire magazine and its ``How-to Guide'' 
on crafting a non-metallic IED for use against aircraft.
    For these reasons, it becomes all the more important to 
have a Senate-confirmed leader. In addition to giving proper 
weight to the counterterrorism activities of the TSA, I believe 
a Senate-confirmed Administrator would also be in a better 
position to address workforce and system access issues raised 
by several recent reports of misconduct and potential 
vulnerabilities.
    Just last month, an investigative report documented alleged 
misconduct among Federal Air Marshals who were inappropriately 
reassigned from their allotted flights to facilitate trysts 
with other agency personnel or to get better routes and 
preferred destinations.
    With respect to access to secure areas of airports, a 
number of recent incidents have involved the secure 
identification display area, or SIDA, badges that airline and 
airport employees use on a daily basis.
    This past December, it was revealed that a Delta ramp agent 
in Atlanta allegedly used his SIDA badge to bypass TSA security 
to further an interstate gun smuggling operation via commercial 
aircraft.
    In January, an Atlanta-based FAA Aviation Safety Inspector 
used his SIDA badge to bypass TSA's security at the airport and 
transport a firearm in his carry-on bag.
    In addition, SIDA badges have reportedly been lost or 
stolen in large numbers at Atlanta's airport, and it is unclear 
whether this problem and other breaches in Atlanta are an 
anomaly or the norm at our airports.
    Today, Mr. Carraway, I am going to be sending you a letter 
asking for additional details about these reported SIDA badge 
abuses and breaches and any others that TSA knows about, and I 
hope I can expect a quick response as well as information about 
TSA's action plan in the meantime.
    Finally, I want to say as part of the budget process, I 
would note the Administration has proposed yet another fee hike 
on the traveling public, and has even signaled more costs and 
fees down the road. With airfares already high, I do not know 
why the Obama Administration sees the wisdom in treating 
airline passengers like a piggyback and jacking up fees, but I 
would welcome any insights that you might be able to share on 
that.
    Thank you for appearing in front of the Committee today. My 
comments about the need for the President to act are not 
intended to be a reflection on you personally, and I hope you 
understand that.
    Mr. Carraway. Yes, sir.
    The Chairman. I just believe that having a Senate-confirmed 
leader at the TSA matters, and I hope the President agrees. If 
you expect to be nominated in a formal capacity, we would 
certainly welcome that information.
    Having said that--I am going to send this letter, can we 
expect a quick reply to our letter on the SIDA issues?
    Mr. Carraway. Most certainly.
    The Chairman. Thank you. I also just want to ask about 
TSA's efforts to expand and develop the Pre3 program for 
trusted travelers. This is a program which is very popular with 
enrollees and the general public, but the DHS Inspector General 
recently reported concerns and recommendations regarding 
Pre3's vetting and screening processes, as well as the 
program's communication and coordination.
    I understand TSA did not concur with all of the IG 
recommendations. Without getting into classified information, 
can you respond generally to the IG's concerns, and explain why 
the agency does not agree with all of the IG's recommendations?
    Mr. Carraway. I always appreciate the involvement of the 
IG's Office in reviewing for us, but specifically the issue 
within TSA Pre3 really is a security issue. Sometimes I think 
that is lost on many that have an opportunity to see that, 
because there is extensive vetting that really goes on, whether 
in the checkpoint line, even before an individual actually 
purchases his or her ticket, and in the vetting that goes on 
once they sign up for and pay their $85, there is extensive 
vetting going on.
    Our simple issue with the report is about vetting that 
really happens and an understanding of that operation.
    The Chairman. Part of that IG report discussed reliance of 
the Pre3 program on various airline frequent flyer programs. 
Could you explain generally how frequent flyer enrollees are 
currently incorporated into Pre3, to what extent previous 
frequent flyer participants are subject to additional vetting, 
and how they will be considered in this program in the future?
    Mr. Carraway. Every participant into the system goes 
through an adjudication process that we actually run in 
addition to the normal biometric checks, identification checks, 
that actually happen. In some cases, it is quite extensive 
adjudication, making certain it is done properly. Even the fact 
that they may be a frequent flyer does not give them the 
guarantee they will get into the system.
    The Chairman. Madam Chair, thank you for the hearing, and 
Mr. Carraway, thank you.
    Mr. Carraway. My pleasure. Good seeing you again. Thank 
you, sir.
    The Chairman. My time has expired.
    Senator Ayotte. I want to thank the Chairman of the 
Committee, and I want to thank Mr. Carraway for being here, and 
certainly as Acting Administrator. We look forward to working 
with you on these issues. Thank you for being here.
    Mr. Carraway. Thank you very much.
    Senator Ayotte. The hearing is adjourned.
    [Whereupon, at 3:41 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                            Melvin Carraway
    Question 1. The Screening Partnership Program allows airports to 
apply to ``opt-out'' of TSA-administered screening and utilize private 
vendors to perform the screening of passengers and baggage. 
Participants must meet TSA standards and protocol, however. What is the 
relationship between the airports, the TSA, and the private vendors 
within the Screening Partnership Program? Which parties enter into the 
contract?
    Answer. Per the Aviation and Transportation Security Act (ATSA) of 
2001 (P.L. 107-71), the Transportation Security Administration (TSA) 
performs the Federal Government oversight role at each airport where 
security screening services are provided. TSA's Screening Partnership 
Program (SPP) manages the use of qualified private screening companies 
to perform the screening of passengers and baggage at airports 
participating in the Program. The airport is not a participant in the 
Federal acquisition process.
    The TSA Federal Security Directors (FSDs) are the final authority 
over security in the screening operations at airports, independent of 
whether a Federal workforce or qualified private screening company 
performs the work. FSDs maintain oversight of SPP airports as Federal 
employees and are responsible for all screening operations at the 
airport. FSDs also ensure qualified private screening companies provide 
effective and efficient security operations.
    SPP contracts are signed by a warranted TSA Contracting Officer and 
an authorized representative from the qualified private screening 
company.

    Question 2. Understanding that TSA standards and protocols govern, 
is there room for flexibility when it comes to staffing hours to 
maximize the potential benefits from working with private contractors?
    Answer. The Transportation Security Administration (TSA) annually 
estimates the number of productive hours needed for each airport. This 
estimate is based on a wait time objective of ten minutes and a 
combination of factors such as airport layout, equipment and passenger 
demand. Productive hours take into account operational screening, 
airport-specific screening related tasks, as well as recurrent 
training.
    Airport-specific information is presented in the TSA Request for 
Proposals (RFP) that serves as the basis for soliciting proposals from 
qualified private screening companies. These companies (called 
``Offerors'' in the Federal procurement process) use the data from the 
RFP to develop their proposed staffing plan to meet the airport-
specific passenger and baggage screening requirements.
    The actual number of contract screeners (or headcount) may differ 
from how the Federal Government would staff the airport. Each Offeror 
has the flexibility to staff according to their specific airport 
(proposed) solution. TSA routinely seeks efficiencies in federalized 
screening operations and engages with SPP contractors to affect 
contracting adjustments to improve SPP airport operations.

    Question 3. What is the intended benefit for airports to apply for 
the Screening Partnership Program? Is that benefit being achieved?
    Answer. The Aviation & Transportation Security Act (ATSA) which 
created the Transportation Security Administration (TSA) mandated a 
pilot program in which airports could ``opt out'' of having a Federal 
screening workforce. Instead, TSA would contract services to screen 
passengers and baggage (including some cargo) for explosives, weapons, 
and other prohibited items from a qualified vendor working under 
Federal oversight. Five airports of different size and risk categories 
participated in the pilot program and after its successful completion 
these airports became the initial participants of the Screener 
Partnership Program (SPP) which was then opened to all airports to 
join.
    The Federal Aviation Administration Modernization Act of 2012 
states that TSA ``shall approve an application submitted by an airport 
operator under subsection (a) if the Under Secretary determines that 
the approval would not compromise security or detrimentally affect the 
cost-efficiency or the effectiveness of the screening of passengers or 
property at the airport.'' Contracts for security screening services 
are awarded after an extensive evaluation of competitive proposals to 
the best qualified vendor. The evaluation process validates that the 
selected vendor meets the qualifications set forth by ATSA, the FAA 
Modernization and Reform Act, and that a vendor has the appropriate 
past performance, operational and program management approaches to 
successfully meet the requirements of the contract.
    Because participation in the SPP is voluntary, TSA remains neutral 
with respect to whether airport operators decide to submit an 
application to participate. It is TSA's understanding that each airport 
applies to the SPP program with its own expectations of the benefits it 
will achieve as a result. TSA is unable to state whether each airport 
considers those benefits to have been achieved through participation in 
SPP.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Ted Cruz to 
                            Melvin Carraway
    Question 1. A yes-or-no answer to the following question: Are 
Transportation Security Officers (TSOs) Federal law enforcement 
officers?
    Answer. No.

    Question 2. A yes-or-no answer to the following question: Do 
Transportation Security Officers receive Federal law enforcement 
training?
    Answer. No, Transportation Security Officers do not receive the 
same training that would be delivered to an armed Federal law 
enforcement officer.

    Question 3. A yes-or-no answer to the following question: Do 
Transportation Security Officers receive any additional training that 
was not provided to screeners?
    Answer. No. A Transportation Security Officer (TSO) and a screener 
are synonymous; therefore, their training is the same. The term 
``Screener'' was used in the Aviation and Transportation Security Act 
(Public Law 107-71). In 2006, the Transportation Security 
Administration changed the position title to ``Transportation Security 
Officer'' to better reflect the level of training and responsibility 
associated with the position.

    Question 4. A yes-or-no answer to the following question: Are 
Transportation Security Officers eligible for Federal law enforcement 
pay or retirement benefits that were not provided to screeners?
    Answer. No.

    Question 5. Please explain the difference between a screener and a 
Transportation Security Officer.
    Answer. A screener and Transportation Security Officer (TSO) are 
synonymous. The term ``Screener'' was used in the Aviation and 
Transportation Security Act (Public Law 107-71). In 2006, the 
Transportation Security Administration changed the position title to 
``Transportation Security Officer'' to better reflect the level of 
training and responsibility associated with the position.

    Question 6. A yes-or-no answer to the following question: Does TSA 
need any additional authority from Congress to allow Transportation 
Security Officers to carry a firearm or arrest and apprehend an 
individual?
    Answer. No. Existing statutory authority under 49 USC 114((n) and 
(p)) allows the Administrator of the Transportation Security 
Administration (TSA) to classify and designate an employee of TSA to 
serve as a law enforcement officer; and such individuals are permitted 
to carry a firearm, make arrests for violations of Federal law, and 
seek and execute warrants. TSA has not exercised this authority for its 
TSOs.

    Question 7. How much money has TSA spent on metal TSO badges since 
2007? Please provide the yearly amounts.
    Answer. From calendar year 2008 through 2012, the Transportation 
Security Administration ordered 66,036 badges for $1.2 million for 
issuance to the Transportation Security Officers, and as replacement 
badges for those that were damaged or lost. The below chart outlines 
overall costs, as well as the yearly costs.

------------------------------------------------------------------------
     Calendar Year          Number of Badges            Total Cost
------------------------------------------------------------------------
2008                                     57,655               $1,030,789
2009                                        250                   $4,605
2010                                      3,429                  $65,700
2011                                      2,582                  $52,125
2012                                      2,120                  $43,926
------------------------------------------------------------------------
Grand Total                              66,036               $1,197,145
------------------------------------------------------------------------
Note: TSA transitioned to metal badges in 2008


    Question 8. Since 2008, how many Transportation Security Officer 
metal officer badges have been reported lost or stolen?
    Answer. As of April 24, 2015, since 2008, 1012 Transportation 
Security Officer metal badges have been reported lost or stolen; 201 
were recovered, leaving a total of 811 as lost or stolen. The 
Transportation Security Administration's Transportation Security 
Operations Center, upon report of a lost or stolen badge, inputs the 
badge information into the National Crime Information Center database.

------------------------------------------------------------------------
                                         REPORTED
                   REPORTED  LOST       RECOVERED         TOTAL  LOST
------------------------------------------------------------------------
2008                            56                  7                 49
2009                           169                 26                143
2010                           115                 21                 94
2011                           152                 38                114
2012                           157                 31                126
2013                           160                 38                122
2014                           160                 34                126
2015                            43                  6                 37
------------------------------------------------------------------------
TOTALS                       1,012                201                811
------------------------------------------------------------------------


    Question 9. Since 2001, how many screeners or Transportation 
Security Officers have been arrested?
    Answer. The Transportation Security Administration's (TSA) Office 
of Inspection has documented reports of 1,297 arrests of Transportation 
Security Officers (TSO) between December 2002 and March 2015. To better 
ensure that all employee arrests are reported, TSA recently implemented 
a perpetual vetting program to conduct a check of various law 
enforcement reporting programs for the purpose of capturing prior and 
current arrests of current employees.

    Question 10. How many screeners and Transportation Security 
Officers have participated in Visible Intermodal Prevention and 
Response (VIPR) teams outside the aviation environment? Please provide 
the yearly totals. Please also explain if Transportation Security 
Officers receive any additional training before participating in a VIPR 
team.
    Answer. The current appropriation for the Visible Intermodal 
Prevention and Response Program (VIPR) supports 30 dedicated 
Transportation Security Officers (TSO) located in the cities of Boston, 
New York, and Washington, D.C.
    In addition, airport Federal Security Directors in other locations 
have provided TSO support for a limited number of VIPR operations in 
their areas of responsibility during the past year (April 1, 2014-March 
31, 2015). These VIPR operations have included approximately 30-40 
additional TSOs nationwide, often for only one VIPR operation in 
instances of surge requirements in the field.
    No additional specialized training beyond their existing training 
requirement is needed to deliver the screening capability for VIPR 
operations outside of the aviation environment. Local transportation 
security and law enforcement stakeholder partners can provide safety 
and orientation training for all TSA personnel involved in these VIPR 
operations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Melvin Carraway
    Question 1. In recent years, TSA has undertaken efforts to 
implement risk-based security (RBS) initiatives, focusing resources on 
the highest-risk areas. One of the tools that TSA uses to conduct RBS 
is the Secure Flight program, which is meant to identify a passenger's 
security risk level before boarding a flight. A recent DHS OIG 
investigation reported that a former domestic terrorist, who had served 
time for homicide and explosives-related crimes, qualified as ``low 
risk'' through Secure Flight. What factors contributed to this 
assessment?
    The Secure Flight programs draws its watchlist information from 
Federal law enforcement and intelligence agencies. How is TSA working 
to strengthen the cybersecurity protocols for the sensitive databases 
that the Secure Flight program uses to assess passenger risk?
    Answer. Secure Flight relies heavily on information from the 
national law enforcement and national intelligence communities. Before 
an individual is allowed into a TSA Pre3 expedited screening lane, 
Secure Flight matches the passenger against terrorism databases and 
watchlists to determine if the passenger is inhibited from flying (a 
``No Fly''), designated for enhanced screening (a ``Selectee''), or 
prohibited from expedited screening through TSA Pre3 because of other 
disqualifying activities (e.g., a record of bringing a prohibited item 
to a checkpoint). If a passenger is not excluded from TSA Pre3 under 
these three circumstances, then Secure Flight uses information provided 
in the passenger/flight data to establish whether the individual is 
suitable for expedited screening.
    In this specific instance, this individual was not in the U.S. 
Government's Terrorist Screening Database and therefore was not 
identified as an individual who was inhibited from flying or who was 
designated for enhanced screening, or who was prohibited from being 
eligible for expedited screening through TSA Pre3 for other 
disqualifying activities. TSA continues to review intelligence and 
threat data to determine a traveler's risk category and the risk 
assessment rules used by Secure Flight to determine whether an 
individual will be granted TSA Pre3 eligibility for expedited 
screening.
    TSA continually works to strengthen the cybersecurity protocols of 
the Secure Flight program through the implementation of an enterprise 
security monitoring suite and a continuous monitoring program designed 
to identify threats early, keep up with evolving threats, and reduce 
overall risk. In 2013, the Secure Flight program participated in an 
extensive Red Team assessment conducted by the National Security Agency 
(NSA) with positive results and minimal findings. TSA implemented 
system improvements to enhance our security posture based on 
recommendations from NSA. The program continues to focus its efforts 
toward identifying possible security vulnerabilities and implementing 
enhancements to improve cybersecurity protocols.
    Question 2. In 2010, there were allegations of misconduct and 
discrimination at the Federal Air Marshal Service's (FAMS) Orlando 
field office. In response, I wrote to the Department of Homeland 
Security's Office of Inspector General (OIG) to review those 
allegations. While the report did not find widespread misconduct, it 
did raise some red flags about the FAMS.
    According to a recent news report, a TSA employee with 
responsibility for dispatching Federal air marshals manipulated 
schedules to facilitate an inappropriate relationship with a Federal 
Air Marshal. Though I may withhold final judgement until this matter is 
thoroughly investigated, I am deeply concerned about repeated acts of 
alleged misconduct with the FAMS. What is TSA doing to ensure that the 
traveling public remains priority number one for the FAMS and to 
eliminate this vulnerability?
    Answer. The Transportation Security Administration (TSA) has a zero 
tolerance for employee misconduct, and has strong processes in place to 
address such problems when they come to light. The Office of 
Inspections is responsible, along with the Department of Homeland 
Security (DHS) Inspector General, for investigating and establishing 
the factual record. The Office of Professional Responsibility 
determines the appropriate administrative action and ensures that due 
process is provided in order to protect an employee's rights. In the 
event that criminal misconduct is discovered, the case will be referred 
for review to the U.S. Department of Justice.
    In June 2014, the Office of Law Enforcement/Federal Air Marshals 
(OLE/FAMS) Assistant Administrator directed a review of the OLE/FAMS 
Systems Operations Control Section to identify and resolve potential 
vulnerabilities related to Federal Air Marshal (FAM) mission flight 
scheduling processes. Due to the complex nature of the scheduling 
process, a dedicated group of employees with significant experience in 
FAM mission scheduling was charged with performing an overarching 
evaluation of current practices and procedures. This review resulted in 
a number of mitigation efforts which have been implemented and include:

  <bullet> Increased supervisory oversight of daily operations;

  <bullet> Implementation of additional checks and balances through 
        separation of critical functions;

  <bullet> Enhanced system access controls; and,

  <bullet> Standup of an internal unit to conduct continuous business 
        process and operational assessments.

    Protecting the traveling public remains the priority of TSA and its 
OLE/FAMS office. The vast majority of OLE/FAMS employees are comprised 
of dedicated, honorable professionals whose mission is focused on the 
safety and security of individuals traveling domestically and 
internationally. OLE/FAMS has implemented several important programs to 
recognize these individuals and further instill and promote integrity, 
professionalism and accountability. A few of these initiatives include 
increased recognition of employee performance and accomplishments from 
TSA and DHS leadership, field office visits from OLE/FAMS senior 
leaders, and increased mentoring and training opportunities.

    Question 3. Last year, it was discovered that airport personnel 
were engaged in a gun running operation at Atlanta's Hartsfield-Jackson 
Airport, where firearms were smuggled around TSA screening checkpoints 
and loaded on planes bound for New York's John F. Kennedy Airport.
    More recently, it was reported that hundreds of airport personnel 
security credentials, known as SIDA badges, have been lost or stolen 
from employees at Atlanta and other airports nationwide.
    As part of TSA's response, you have asked that the Aviation 
Security Advisory Committee develop recommendations for airport 
personnel security procedures; that review is ongoing. Certain aviation 
stakeholders have expressed concerns that the logistics of 100 percent 
physical screening of employees is not practical, do you believe more 
can be done to improve these employee security processes without 
creating unachievable security mandates?
    Answer. The Transportation Security Administration (TSA) is taking 
additional steps to address the potential insider threat vulnerability 
at U.S. airports. These steps follow a 90-day Aviation Security 
Advisory Committee (ASAC) comprehensive review. Immediate actions 
include: (1) Recurrent background checks for all aviation workers; (2) 
Requiring airport and airline employees traveling as passengers to be 
screened by TSA prior to travel; (3) Reducing the number of access 
points to secured areas; (4) Increasing aviation employee screening, to 
include additional randomization screening throughout the workday; and 
(5) Re-emphasizing situational awareness programs and encouraging 
detection and reporting of threat activity. TSA is also continuing to 
analyze the recommendations of the ASAC report to identify additional 
mitigating measures for future implementation. The ASAC report did 
conclude that 100 percent physical employee screening would not 
completely eliminate potential risks, but would divert critical 
resources from other critical security functions to mitigate other 
risks.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Melvin Carraway
    Question 1. The administration's budget request for Fiscal Year 
2016 seeks $5.6 billion for aviation security--but just $124 million 
for surface transportation security. The budget request also seeks to 
reduce the number of TSA employees working on transportation security 
by almost five percent. What this means is that efforts like TSA's 
Visible Intermodal Prevention and Response (VIPR) (pronounced 
``viper'') program will be reduced. As you know, VIPR teams consist of 
TSA officials and local law enforcement officials who conduct periodic 
patrols of transit and passenger rail systems and create a visual 
deterrent to would-be terrorists. But the budget reduces the number of 
teams from 33 to 31. Is TSA putting enough resources toward our surface 
transportation security network? Does TSA have enough manpower to carry 
out its mission to protect railroads, transit and ports?
    Answer. The Transportation Security Administration (TSA) has 
sufficient resources to successfully carry out the mission of 
protecting the surface modes of transportation, which includes mass 
transit, passenger rail, freight rail, highways, pipeline, and maritime 
modes. With the available resources, TSA secures the surface modes 
through sector and modal planning efforts, operational deterrence 
support through inspections and Visible Intermodal Prevention and 
Response (VIPR) teams, training, screening and detection programs, 
regulations, and vulnerability and risk assessments.
    Much of TSA's success is based on collaboration with security 
partners at the Federal, State, and local levels, where much of the 
resources and efforts exist.
    An example of TSA's collaborative approach to voluntary security 
efforts with stakeholders is through use of its VIPR program resources 
to respond to areas with the highest terrorist risk in both surface and 
aviation modes. The VIPR program is currently updating its Concept of 
Operations (CONOPS) to further increase its risk-based focus and 
personnel utilization. The CONOPS framework is based on aligning risk 
mitigation capabilities by evaluating potential deployment locations 
against the appropriate Transportation Sector Security Risk Assessment 
(TSSRA) scenarios. As resource levels vary, the program will apply the 
CONOPS to add or reduce deployment levels consistent with the TSSRA 
risk profile, maximizing mitigation at locations of highest risk.

    Question 2. In 2007, Congress passed the Implementing 
Recommendations of the 9/11 Commission Act (P.L. 110-53). That 
legislation requires the Department of Homeland Security--through the 
TSA--to create a regulatory framework that addresses the threats facing 
our passenger and freight rail systems and transit agencies. Among 
other things, the legislation directs DHS and TSA to do the following:

  <bullet> Approve security plans for all railroads that are considered 
        vulnerable, high-risk targets for a terrorist attack (Section 
        1512);

  <bullet> Issue regulations that establish training standards on 
        potential security threats and conditions for frontline 
        employees at public transportation agencies, railroads and bus 
        providers (Sections 1408, 1517 and 1534); and

  <bullet> Provide a framework for conducting name-based security 
        background checks and immigration status checks on all 
        frontline employees at public transportation agencies and 
        railroads (Sections 1411, 1520 and 1522).

    The legislation was enacted in August 2007 and these items were all 
due within one year of that date. Yet it is now more than six years 
since the latest deadline, and we still do not have final action on 
many of the legislation's requirements.
    Failure to complete all the mandates of the legislation raises 
questions about attention to urgent priorities and whether we are 
prepared for any and all emerging threats on the horizon. Mr. Carraway, 
why is it taking so long to carry out these mandates? When will these 
actions be complete?
    Answer. The Transportation Security Administration (TSA) continues 
to move forward on the implementation of mandates required by the 
Implementing Recommendations of the 9/11 Commission Act of 2007, Public 
Law 110-53 (9/11 Act). TSA is developing the proposed rule required 
under Section 1512, as well as a proposed rule to integrate the 
training requirements for three surface modes into a single rule to 
meet the requirements of Sections 1408 (public transportation), 1517 
(railroads), and 1534 (over-the-road buses). TSA has obtained input on 
current programs and costs in light of efforts by both stakeholders and 
the government since September 11, 2001, to raise the baseline of 
security for public transportation, railroads, and buses, and 
incorporate a more risk-based approach to fulfilling the requirements 
of the 9/11 Act.
    The details included in the 9/11 Act's regulatory requirements have 
served as guidance to both the industry and government as they have 
worked together to develop programs and prioritize resources to raise 
the security baseline for public transportation, railroads, and buses. 
The current baseline across the industry resulting from voluntary 
efforts is very close to what TSA would expect to see once the 9/11 
Act's regulatory requirements are implemented. TSA has prioritized the 
development and distribution of security training resources for surface 
transportation frontline employees through modally-specific training 
products, which improves assessment results across all modes of surface 
transportation. With this targeted effort on security training, TSA has 
seen assessment results related to security training improve across all 
modes of surface transportation. As a result, TSA anticipates the 
majority of highest-risk systems would need, at most, minor 
enhancements to their current security programs to satisfy the proposed 
requirements and ensure the permanency of this important level of 
security.
    TSA and the Department of Homeland Security (DHS) consider the 
training rule among their highest priorities. The DHS goal, consistent 
with the Unified Agenda, is to submit a proposed rule to the Office of 
Management and Budget by the end of the calendar year. TSA has 
requested information from stakeholders on current training levels and 
is analyzing the results to evaluate costs and benefits of the 
regulatory requirements.
    In addition, TSA is developing a Notice of Proposed Rulemaking to 
satisfy the requirements of Sections 1411, 1520, and 1522. TSA will 
determine through the surface training rule who will require vetting 
based on risk. Once that is complete, TSA can define the vetting 
standard that will apply.
    Finally, TSA is developing a comprehensive vetting capability which 
will allow the addition of new populations to the vetting system. The 
Technology Infrastructure Modernization (TIM) creates a person-centric 
system that will eliminate redundant background checks and streamline 
credentialing services. Once completed, TIM, coupled will a common 
universal fee structure also under development, will enable TSA to add 
new vetted populations, including those required by the 9/11 Act.

    Question 3. The TSA is charged with the tremendous task of keeping 
the country's aviation and surface transportation networks safe. The 
agency has faced countless threats and has been critical in thwarting 
them. There have been changes in technology, developments in assessing 
risks, and evolutions in the types of threats the Nation faces, and the 
TSA has the hard job of keeping pace with it all.
    At the forefront of these efforts are the TSA agents that interface 
daily with the traveling public. They are the face of the agency and 
the ones that have the closest interactions with civilians. They also 
face the greatest risk as they put their lives on the line to protect 
against attacks to transportation networks.
    The role these agents play is undoubtedly crucial to the safety of 
the traveling public, but as I looked through the letters I've received 
about the TSA from constituents in my preparation for TSA's presence 
before the committee, the message was overwhelming that many people 
feel that they are mistreated and at times intimidated by TSA agents.
    Mr. Carraway: In many ways TSA is the face of the Federal 
government--TSA employees encounter hundreds of thousands of passengers 
day-to-day. How much training time is devoted to the treatment of 
passengers? Are there currently plans in place to improve the treatment 
of the traveling public?
    Answer. The Transportation Security Administration (TSA) 
continually provides training to its officer workforce to help them 
understand the importance of effective communications and the courteous 
treatment of individuals processed through security checkpoints. TSA's 
officer workforce is required to take basic new hire training comprised 
of classroom and on-the-job training (OJT), and must successfully 
complete annual requirements of TSA's National Training Plan (NTP), 
comprised of web-based and instructor-led training courses. A common 
theme throughout training is the importance of professionalism, 
respect, courtesy and integrity.
    New hire officer candidate training is infused with the key 
principles necessary for a professional Transportation Security Officer 
(TSO) workforce, and includes specific lessons focused on the TSA's 
Code of Conduct; Customer Focused Security; and Communications and 
Active Listening. The new hire officer candidate training also includes 
64 hours of classroom training and an OJT training program, which takes 
nearly 150 hours to complete, depending upon the new hire's ability to 
demonstrate proficiency for each of the screening procedures.
    TSA's ongoing training for the officer workforce is mandated 
through the NTP, developed annually, which includes general and 
technical training. This mandatory training (approximately 65 hours) 
focuses the officers' attention on effectively using critical thinking 
skills to help facilitate the screening process through communication 
and courteous treatment of passengers.
    In 2013, TSA initiated an ``Image Awareness'' training series to 
review core expectations with the officer workforce using current 
events and references. The training is a facilitated discussion between 
leadership and the officers, and has thus far focused on TSA's core 
value of integrity, the agency's Code of Conduct, and overall 
performance expectations. The third installment is focused on customer/
passenger engagement and will be released this summer.
    TSA has also introduced a series of training courses for its front 
line TSO leadership team, to include Leads, Supervisors and Managers. 
These courses are the ``Essentials of Leading, Supervising, or Managing 
Screening Operations,'' which are delivered at TSA's Training Academy 
at the Federal Law Enforcement Training Centers (FLETC) facility at 
Glynco, GA (for uniformed Leads and Supervisors--2 week courses), and 
TSA's Training Center at Atlantic City, NJ (for Managers--1 week 
course). These courses focus on helping the leadership team understand 
how to use communications tools and practices to build a strong 
professional screening team at the checkpoint and baggage screening 
areas. The use of TSA's Training Academy, located at the FLETC at 
Glynco, GA, has yielded positive feedback from the attendees, and has 
demonstrated TSA's commitment to the development of a professional 
workforce.
    TSA plans to continue its efforts to provide training to its 
officer workforce, strengthen passenger engagement, and improve 
communication skills. The Image Awareness Series will be used to 
deliver 1-2 new sessions each year for the entire workforce. The 
planned migration of new hire officer candidate training to the TSA 
Academy at the FLETC facility over the next four to five years will 
increase the ability of TSA to fully explain and emphasize its 
expectations regarding professionalism and passenger engagement to its 
new hires at the start of their TSA careers into the professional 
culture of TSA.

    Question 4. Mr. Carraway: The GAO has reported that the TSA 
Behavior Detection and Analysis program methodology has not been 
completely validated. Are you concerned that some of the BDA practices 
lead to the mistreatment of innocent passengers? What is being done to 
correct and improve agent interactions with the public?
    Answer. Behavior detection and analysis is a critical layer in the 
Transportation Security Administration's (TSA) risk-based security 
system, as passengers are observed for behaviors which may indicate 
that an individual poses a threat to transportation security. These 
techniques, including observation and verbal engagement, have been an 
accepted practice for many years within the law enforcement, customs 
and border enforcement, defense, and security communities. In April 
2011, the Department of Homeland Security Science and Technology 
Directorate (DHS S&T) completed a comprehensive study that examined the 
validity of using behavior indicators in order to identify high-risk 
passengers. The study found that TSA's program provided a number of 
screening benefits and is more effective than random selection at 
identifying high-risk passengers. While S&T and GAO both noted some 
deficiencies in the methodology used as a part of the study, it was an 
important step in assessing the technique in an operational 
environment.
    In addition, the program continues to improve and evolve. Since the 
2011 Validation Study, TSA revised indicators based on the research 
literature; provided improved standardized information for each 
indicator (e.g., operational definitions, assessment criteria, further 
information); improved processes such as revising thresholds, 
terminology changes, and providing greater emphasis on critical aspects 
(e.g., passenger interaction); and enhanced training.
    In 2012, TSA began a third party, independent review by the 
American Institutes for Research, to test, refine and strengthen the 
unique indicators used by the officers to detect ill intent. This 
review was completed in 2014. TSA continues to work with the Government 
Accountability Office, meeting with them as recently as last month, in 
addressing all of their recommendations.
    Additionally, TSA has taken, and continues to take, great strides 
to ensure the screening workforce receives clear guidance and training 
to prevent any form of unlawful profiling. TSA has reiterated the 
agency's zero tolerance policy for unlawful profiling through shift 
briefs, job aids, yearly pledge, and management communications to TSA's 
workforce. TSA training documents have been reviewed and revised to 
emphasize that unlawful profiling violates agency policy and anti-
discrimination laws.

    Question 5. Connecticut has five general aviation (GA) airports. 
These airports have a tremendous impact on the local communities and 
economies that they serve by improving the operational efficiency of 
the businesses in the surrounding areas.
    Although these airports are important, they are not large enough 
nor do they generate enough revenue to adequately address security 
needs without the help of the TSA. Oftentimes, the GA community cites 
the increase in cost and logistical restraints in any attempts to shift 
a greater share of the security burden from the TSA to GA stakeholders.
    Mr. Carraway: The Implementing Recommendations of the 9/11 
Commission Act directs the TSA to create a standardized risk assessment 
program for GA airports as well as establish a grant program to 
strengthen GA airport security. What is the status of each directive?
    What can be done to increase the efficiency of the coordination 
efforts between the TSA and GA airports to improve GA security without 
making it more costly?
    Do you believe the TSA can play a larger role in GA airport 
security?
    Answer. In response to the requirements of the Implementing 
Recommendations of the 9/11 Commission Act, the Transportation Security 
Administration (TSA) formed the General Aviation (GA) Stakeholder 
Strategic Engagement planning committee to develop and design GA 
stakeholder engagement initiatives. This engagement led to a table top 
exercise in 2012 that included 98 GA participants from 28 GA 
organizations. The goal was to improve GA capabilities in the areas of 
prevention, protection, and threat mitigation. As a result of lessons 
learned during the exercise, TSA published and shared with stakeholders 
the GA Strategic Engagement Report.
    TSA continues to work with GA airports and stakeholders on a 
regular basis to evaluate risk-based security best practices without 
increasing costs to the GA community. For example, TSA conducted a 
Threat and Vulnerability Assessment of General Aviation and shared 
these results with the GA community. TSA worked with aviation partners 
to develop an Airport Characteristics Measurement Tool to provide 
standardized risk assessment information and GA Airport Security 
Guidelines. TSA also partnered with GA airports to implement the GA 
Secure Hotline program for airport and aircraft operators to facilitate 
reporting of suspicious activity. TSA, in accordance with the 
Implementing Recommendations of the 9/11 Commission Act, drafted a GA 
airport security grants program. However, in the budget process at that 
time, due to resource allocation and comparative risk assessment, 
funding was not allocated for this effort.
    TSA develops its annual budget request based on reducing risk and 
maximizing security effectiveness in a cost efficient manner. TSA 
remains committed to working with Congress and GA airports to develop 
innovative methods to improve security without additional cost to the 
GA community.

    Question 6. Our railroads and transit systems are a vital, integral 
parts of American life--especially in dense, urban places like the 
Northeast Corridor, the region of the state I represent. The 9/11 
Commission urged us to vigilantly protect the ``neglected parts of our 
transportation security system'' like and rail and transit--just as 
much as we protect aviation. ``Surface transportation systems such as 
railroads and mass transit remain hard to protect because they are so 
accessible and extensive,'' the commission warned. Late last year, 
Iraq's prime minister, Haider al-Abadi, claimed he had information that 
the Islamic State planned to attack targets throughout Europe and the 
United States, including ``the metros of Paris and the U.S.'' U.S. 
officials claimed his assertions were unfounded, but still they raise 
vital reminders about transit and rail security, especially in light of 
high-profile attacks in recent years on rail systems in Madrid, Mumbai, 
Moscow and London.
    Our country's public transportation and passenger rail systems are 
used by tens of millions every day and serve as the backbone of 
economic activity throughout the country. They carry nearly five times 
as many people per day as our airlines do. Penn Station in New York 
City handles half a million passengers a day--making it busier than all 
three New York City regional airports combined, and the busiest 
transportation hub in our country.
    It's critical we ensure that rail and transit systems are safe and 
secure for all who rely on them. Our freight rail network is also 
critical to our economy, and a recent surge in shipments of crude by 
rail has raised questions about terrorist threats to crude oil trains. 
An attack on these systems could harm tens of thousands and disrupt an 
economy depended upon by millions. TSA is the agency responsible for 
surface transportation security--in addition to its aviation 
responsibilities.
    Mr. Carraway: What efforts are you taking to ensure our Nation's 
vast and expansive surface transportation network is secure and not 
``neglected,'' as the 9/11 Commission warned?
    Answer. An integral part of the surface transportation security 
effort is engaging stakeholders in developing effective operational 
security. The Transportation Security Administration (TSA) engages with 
Federal, State, local, and private sector partners to identify ways to 
assess risk, develop voluntary security standards, reduce 
vulnerabilities, and improve security through collaborative efforts. 
These efforts cover mass transit, passenger rail, freight rail, 
highways, pipeline, and, with the United States Coast Guard, maritime 
modes.
    As an example, TSA and the National Railroad Passenger Corporation 
(Amtrak) have a long-standing security partnership through programs 
designed to deter terrorist activity through expanded random, 
unpredictable security activities. Amtrak has also expanded 
coordination with other rail and public transportation agencies and 
local law enforcement through the Regional Alliance Including Local, 
State and Federal Efforts (RAILSAFE) program. Operation RAILSAFE is a 
coordinated effort involving counterterrorism activities such as 
heightened station and right-of-way patrols, increased security 
presence on board trains, explosives detection canine sweeps, and 
random passenger bag inspections. On average, more than 40 states and 
over 200 agencies participate, including TSA's Visible Intermodal 
Prevention and Response (VIPR) teams.
    TSA also conducts system-level reviews of mass transit agencies, 
passenger railroads (including Amtrak), and over-the-road bus operators 
through the Baseline Assessment for Security Enhancement (BASE) 
program. BASE assessments are conducted by TSA's Transportation 
Security Inspectors-Surface with emphasis on the 100 largest mass 
transit and passenger railroad systems and over-the-road bus operations 
as measured by passenger volume. This group accounts for over 80 
percent of all users of public transportation.
    TSA also requires freight rail and passenger rail entities to 
designate a security coordinator and report significant security 
concerns and, for rail cars containing rail security-sensitive 
materials, certain freight rail entities must comply with chain of 
custody and control requirements and provide location and shipping 
information. TSA continues to work with freight railroads, at the 
corporate and field levels, to identify risks and incorporate risk-
mitigating activities into the railroads' operational plans and 
practices and regulatory compliance.
    Additionally, TSA facilitates Intermodal Security Training and 
Exercise Program (I-STEP) exercises to help surface transportation 
entities test and evaluate their prevention and preparedness 
capabilities and their ability to respond to threats. As new threats 
emerge, I-STEP scenarios are updated to ensure industry partners are 
prepared to exercise the most appropriate countermeasures.
    TSA has also developed and distributed security training resources 
for surface transportation frontline employees such as TSA-produced 
training modules and grant program funding. TSA's First 
Observer<SUP>TM </SUP>program trains highway professionals to observe, 
assess, and report potential security and terrorism incidents. Finally, 
TSA partners with the Federal Emergency Management Agency to allocate 
transit security grants under the Transit Security Grant Program 
(TSGP), which allows state and local entities to mitigate terrorism 
risk through operational deterrence activities such as counterterrorism 
teams, mobile screening teams, explosives detection canine teams, 
training, drills/exercises, and public awareness campaigns; site 
hardening; equipment purchases; and other capital security 
improvements. Between FY 2006 and FY 2014, approximately $2.1 billion 
in TSGP funding was awarded to public mass transit owners and 
operators, including Amtrak and their dedicated law enforcement 
providers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                            Melvin Carraway
    Question 1. Northeastern New Jersey is a densely packed area filled 
with commerce and commuters, and an example of how vulnerable our 
surface transportation systems are to a potentially devastating attack. 
The TSA must do everything in your power to not just improve security 
at our airports but also along our highways, rail, transit lines, and 
ports.
    Acting Administrator Carraway, Newark is part of a major seaport. 
In the coming years the volume of cargo at the port is expected to 
dramatically increase. What steps is the TSA taking to help local, 
state, and Federal agencies inspect cargo and ensure security at our 
country's major ports?
    Answer. The Transportation Security Administration (TSA) works very 
closely with the United States Coast Guard (USCG) and Customs and 
Border Protection (CBP) to ensure security at our country's major 
ports. Per the Maritime Transportation Security Act of 2002, USCG is 
the lead for maritime-related security initiatives. Since 2010, the 
Newark port area has received over $1.3 million in direct awards and 
$64 million in combined awards under the Port Security Grant Program 
(PSGP) administered by the Federal Emergency Management Agency for 
where projects that encompass the Ports of New York, New Jersey, and 
Newark.
    TSA also supports maritime security efforts in several important 
ways, including the following:

  <bullet> Transportation Worker Identification Credential (TWIC) 
        Program: The TWIC Program is a strategic security partnership 
        among the USCG, TSA, and the private sector that verifies the 
        identity and conducts security threat assessments of 
        individuals seeking unescorted access to secure port areas. The 
        TWIC Program further enables maritime vessel and facility 
        operators to make informed access-control decisions. TSA is 
        responsible for enrollment, conduct of security threat 
        assessments, systems operations and maintenance related to TWIC 
        card issuance. The USCG is responsible for enforcement of 
        regulations governing the use of TWIC cards at regulated 
        facilities and vessels.

  <bullet> Visible Intermodal Prevention and Response (VIPR) Program: 
        TSA's VIPR teams partner with state and local law enforcement 
        officers to operate throughout the transportation system, 
        including port areas and terminals, as an additional layer of 
        security. TSA has conducted more than 5,500 VIPR operations at 
        maritime locations since the program's inception in 2005.

  <bullet> National Canine Program: Ten TSA canine teams are currently 
        dedicated to maritime sector and 76 multi-modal teams can 
        deploy to maritime assets based on ongoing threat information.

    Question 2. I am proud of the TSA workers making sacrifices and 
putting themselves at risk to protect Americans as they carry out their 
duties, and I am concerned about the low morale reported in the agency. 
For years critical government employees have seen their pay remain 
stagnant. This problem is especially troubling for TSA workers, because 
they do not benefit from most of the Title 5 rights that are 
commonplace for workers in other agencies, such as the G.S. pay scale. 
In addition, I have heard concerns from my constituents that work for 
TSA about ongoing efforts to reduce wait times for travelers, which is 
making it more challenging for workers to properly screen bags and 
people.
    Acting Administrator Carraway, can you explain what steps TSA is 
taking to improve morale among the workforce?
    Answer. The Transportation Security Administration (TSA) is taking 
many steps to improve morale among the workforce. TSA analyzes results 
from workforce opinion surveys, such as the Federal Employee Viewpoint 
Survey (FEVS), on an annual basis and targets high priority areas for 
improvement through local (e.g., airport, office) and TSA-wide action 
plans. TSA focuses improvement action planning in leadership 
development, improving communication to the workforce, and engaging 
employees in problem solving. Some of the methods by which TSA is 
targeting employee morale concerns include:

  <bullet> Soliciting input on agency improvements from the workforce 
        through its IdeaFactory, an online forum for TSA employees to 
        share ideas and suggestions.

  <bullet> Launching a blog targeted towards mid and senior leaders to 
        stress the importance and provide examples of good engagement 
        practices.

  <bullet> Expanding opportunities for leadership courses and 
        leadership development programs.

  <bullet> Creating a learning, engagement and development portal 
        called Success U that equips employees with the information and 
        resources they need to improve themselves and the organization, 
        including free career coaching resources and mentoring program 
        opportunities.

  <bullet> Conducting action planning at the supervisor/team level 
        emphasizing ownership in team improvement. Recently launched at 
        10 large airports, these teams have seen improvements in key 
        areas such as communication and career development.

    Question 3. Have you considered expanding Title 5 rights to TSA 
workers?
    Answer. In 2001, Congress passed the Aviation and Transportation 
Security Act (ATSA), Public Law 107-71, which established the 
Transportation Security Administration (TSA) as an excepted service 
agency. Under ATSA, as stated in 49 USC Sec. 114(n), TSA employees are 
covered under the personnel management system of the Federal Aviation 
Administration (FAA), as set forth in 49 USC Sec. 40122(g) and subject 
to the requirements of Section 40122, the TSA Administrator may make 
modifications to the FAA personnel management system. Specifically, 
Section 40122(g) explains that Title 5 shall not apply to this 
personnel management system, with the exception of specific enumerated 
sections. Therefore, the General Schedule (GS) pay system established 
under Title 5 is not applicable to either TSA or FAA without statutory 
changes.
    While TSA is not covered by the GS pay system, TSA's Core 
Compensation System is composed of pay bands and applies to all 
employees who are not in the Transportation Security Executive Service. 
This system is used to determine employee pay and covers employees in a 
fair and equitable manner. TSA also has goal and competency-based 
performance management systems for all employees that allow supervisors 
and managers to recognize and reward high performers through salary 
increases and performance awards.

    Question 4. What steps are you taking to address concerns in your 
workforce that speeding up lines is making it harder for TSA workers to 
do their jobs properly and keep our country safe?
    Answer. The Transportation Security Administration (TSA) has taken 
multiple steps to engage and educate the workforce on the principles of 
risk-based security (RBS), and in the process, giving them a more 
complete understanding of how providing expedited screening to 
passengers deemed low-risk enables TSA to focus resources on higher 
risk passengers. Leadership provided several tools to the field to 
further this understanding, including Standard Operating Procedures 
(SOP), a Frequently Asked Questions website, and an Implementation 
Guide.
    TSA Headquarters also hosts a monthly teleconference call with the 
field personnel to provide information on various topics such as TSA 
Pre3, technical guidance, and policy/program changes. In December 
2014, TSA created and began dissemination of a monthly newsletter 
compiled of technology, field briefings, program updates, and 
operational data.
    Further, TSA has implemented the Operations Network for Employees 
initiative to foster collaborative and productive working relationships 
between headquarters and the frontline workforce. This is a multi-phase 
initiative, which includes bringing field employees to TSA Headquarters 
to act as a voice for their peers and to gain a better understanding of 
how decisions are made and how programs are deployed to the field. The 
initial working groups from the field helped headquarters personnel 
identify that a better understanding of RBS principles is needed. As a 
result, TSA is committed to developing additional training overviews on 
key RBS components to share with field personnel.

    Question 5. I applaud the TSA for working diligently to implement a 
risk-based security (RBS) initiative that improves efficiency and 
strengthens security. However, I am concerned about proposed changes to 
the cornerstone of the TSA's RBS program, TSA Precheck. In December 
2014, TSA issued a request for proposals (RFP) to update the TSA 
Precheck database system without the requirement to include FBI 
database screening in the process. While the RFP was quickly withdrawn, 
this proposal indicates that TSA is considering a major shift in 
policy. As you know, the TSA utilizes FBI-certified contractors to 
fingerprint pre-check applicants and transmit those fingerprints to the 
FBI for cross-matching with their criminal database. I would like more 
information from the TSA on the change in policy indicated in the 
December 2014 RFP, because I am concerned that relying entirely on 
commercial databases to screen TSA Precheck applicants could threaten 
safety.
    Acting Administrator Carraway, why did the December 2014 RFP not 
include an FBI channeling requirement?
    Does eliminating the FBI database requirement weaken the vetting 
process?
    Answer. While the existing TSA Pre3 Application Program does 
require a criminal history background check based on fingerprint 
submission to the Federal Bureau of Investigation (FBI), the 
Transportation Security Administration (TSA) recognizes that there may 
be other avenues for completing a criminal history check available to 
vendors using capabilities currently utilized as best practices in 
industry.
    The Request for Proposal (RFP) released in December 2014 had asked 
prospective vendors to propose their approaches to completing the 
criminal background check prior to submitting the applicant to TSA. 
While the current TSA process would serve as a baseline, vendors could 
also propose an alternate process to achieve the same outcomes using 
different capabilities. The RFP had required that, before any alternate 
processes for conducting criminal history checks could be implemented, 
the Department of Homeland Security (DHS) Science and Technology (S&T) 
Directorate would need to test and evaluate the proposal. DHS and TSA 
would analyze the testing results to determine if the solutions meet 
TSA threat assessment standards, as well as remain consistent with 
privacy and civil rights and civil liberty policies. Any vendor 
solution that did not pass testing would not have been implemented.
    TSA removed the RFP in order to make clarifying technical changes 
and expects to repost it in the near future.

                                  [all]

                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
